The Joint Automated Booking System




        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 05-22
               May 2005
               THE JOINT AUTOMATED BOOKING SYSTEM

                          EXECUTIVE SUMMARY

      The Joint Automated Booking System (JABS) is a computer system
that helps federal law enforcement agencies book, identify, and share
information quickly about persons in federal custody. The U.S. Department
of Justice (Department) developed JABS to support its law enforcement
components.

      The purpose of our audit was to assess the extent to which the JABS
program was meeting its stated goals, and to assess the status of
implementation of JABS. Our audit focused on efforts to implement JABS
from the time component representatives formally signed onto the project in
May 1999 through November 2004.

       Currently the JABS program partially meets its stated goals and has
been implemented widely, but improvements are needed. The program has
automated the booking process in the Department’s law enforcement
components and provided an automated interface with the FBI’s fingerprint
system, ensuring the rapid and positive identification of offenders at sites
where it is deployed. Automation has also streamlined part of the booking
process by reducing the number of times fingerprints are captured within an
agency. Basic data sharing between components has been provided, with
components sharing one another’s offender data by viewing and printing
information from the central JABS repository. However, we found that the
system does not reduce booking steps through data sharing as envisioned,
resulting in component redundancy and duplication of effort. We also found
that the offender tracking system was incomplete, reducing the agencies’
ability to track offenders. By the end of November 2004, the JABS program
had been implemented in over 840 Department locations, or about 77
percent of the sites requested by the Department’s law enforcement
components, but is not yet sufficiently implemented to be used for all
Department arrests.

Background

       The Department’s law enforcement components book offenders by
collecting fingerprints and photographs, and by recording information about
the arrest and charges, the person’s identity, address, physical description,
and other information, all of which are commonly referred to as
biographical data. A single arrest may involve as many as three distinct
bookings, during which the arresting agency, then the United States


                                       i
Marshals Service (USMS), which detains the offender, and then the Bureau
of Prisons (BOP) which incarcerates the offender, may capture photographs,
fingerprints, and biographical data about the same offender.

      Prior to implementation of JABS, booking data were captured on paper
and in systems accessible by only one agency, making it difficult to share
information among federal law enforcement components. In components
without a data system for recording bookings, storing, managing, and
retrieving such information was inefficient. For example, information sent to
the Federal Bureau of Investigation (FBI) for identification purposes was sent
by mail on hard-copy forms, and the response from the FBI could take
several weeks.

       Recognizing the labor intensive and redundant nature of the booking
process, the Department established the Joint Automated Booking Station
Pilot Project in 1993 to study the feasibility of automating the booking
process and sharing data between Department components. The Pilot
Project, which began operating in February 1996, consisted of eight sites in
the Southern District of Florida.

      The Pilot Project (completed in 1999) demonstrated that automated
bookings saved time, agencies could re-use data originated by another
agency, electronic fingerprints could be submitted to the FBI, and a set of
common data elements could be used by the participating agencies. Based
on the success of the Pilot Project, the Department decided in 1999 to seek
nationwide implementation of JABS.

      The nationwide JABS is composed of two components: the Core JABS
and the participating agencies’ Automated Booking Systems (ABS). The
Core JABS is the central processing component of the system that
communicates with participating agencies and stores booking data that can
be queried by users. The Core JABS also validates and manages
transactions to and from the FBI’s fingerprint system, the Integrated
Automated Fingerprint Information System (IAFIS). Each participating
agency has its own ABS that collects fingerprints, photographs, and other
information about the arrest and the offender, assesses the quality of
fingerprints to be sent to the FBI, and transmits and receives information to
and from the Core JABS. The Query Tool, which is part of the Core JABS,
provides access for users to search the central data repository and generate
standard reports.

      With the ABS, law enforcement officers use automated booking
stations to capture fingerprints and photographs in digital form. These


                                      ii
fingerprints and photographs, along with arrest and personal information,
are formatted and transmitted electronically through the central JABS server
to IAFIS. IAFIS matches JABS data against FBI information to positively
identify offenders and responds to the submitting officers, through JABS,
with identifying information about the person. The information stored in the
national JABS database is available using a web browser for querying,
viewing, and downloading by authorized JABS users in participating
agencies.

     All of the Department’s law enforcement components participate in
JABS as booking agents. A few users in other Department components have
query-only access to search the central JABS database.

      In addition, federal law enforcement agencies outside the Department
are permitted to become JABS users. As of September 2004, these included
the Department of Homeland Security (DHS), the U.S. Army Military Police,
and the National Institutes of Health Police. With the exception of the DHS,
these other agencies perform very small numbers of transactions.

      Funding for JABS has been provided from congressional
appropriations, the Department’s Working Capital Fund, and the Asset
Forfeiture Fund. Total funding for the nationwide project for fiscal years
(FYs) 1999 through 2004 was $82.7 million.

Accomplishment of Goals

      The JABS goals and mission as stated in 1999 were to:
1) automate the booking process; 2) enable each law enforcement
organization to share and exchange data between users; and 3) establish an
offender tracking system. These goals were to have the effect of ensuring
the rapid positive identification of offenders, streamlining the booking
process, reducing redundant booking steps between components, aiding in
criminal investigations, and enabling law enforcement organizations to track
offenders through disposition.

      Automating the Booking Process

       To automate this process, the JABS program needs to deliver the
capability for each Department law enforcement component to:
1) electronically record standardized booking data, including digitized
fingerprints and photographs; 2) transmit usable data to IAFIS securely for
identification, and 3) receive responses from IAFIS quickly. The JABS
Program Management Office projected that achieving these three objectives


                                       iii
would result in decreased fingerprint transmittal time to IAFIS, decreased
rejection rates for fingerprint sets submitted to the FBI, and a streamlined
booking process that would reuse information that has been entered once.

      We found that the JABS program has successfully implemented, in
each Department law enforcement component and the DHS, a system to
book offenders electronically, send fingerprints to the FBI for identification,
and receive responses from the FBI quickly. The JABS program also has
developed the Core JABS to validate, package, and transmit data to and
from the FBI’s IAFIS and to store booking data.

       Where deployed, JABS has resulted in significantly decreased
transmittal time for fingerprints to the FBI, which, in turn, provides a
response to JABS within hours rather than weeks. Fingerprint sets sent to
the FBI through JABS have a slightly lower rejection rate than all criminal
hard-copy sets submitted, and additional improvements may be possible
from future technology advances. The booking process has been
streamlined to some extent because users can take a person’s fingerprints
once and print out as many hard-copy cards as needed. Yet, the booking
process streamlining has not been fully achieved. Many arresting officers
still manually complete hard-copy forms that are brought to the USMS with
an offender and that contain information that has already been recorded in
the automated booking station.

      Sharing and Exchanging Booking Information

       JABS was also intended to: 1) support booking automation through
data sharing, thereby reducing or eliminating redundant booking steps, data,
and data entry; and 2) aid in criminal investigations. The Pilot Project had
shown that previously recorded information about an offender and the arrest
could be made available to multiple agencies to use for subsequent bookings
and inquiries. The JABS program established performance measures to
evaluate the success of reducing redundant steps and aiding in
investigations. These measures involved a decrease of 50 percent in the
time it takes to perform a subsequent booking and decreased time to
identify existing federal booking information.

      To reduce or eliminate booking steps and data, booking information
would be entered by the arresting agency once, after which the second or
third-tier agencies would access the common booking data and append or
update the record with additional information as needed, including the
disposition of the offender. This has not been achieved. The cycle time for
subsequent bookings has not been decreased through data sharing, as


                                        iv
envisioned in the Pilot Project and nationwide JABS planning documents.
During our audit, we found that inefficiencies between agencies that existed
prior to the Pilot Project in 1996 continued to exist. The USMS and BOP still
re-enter information that already exists in the Core JABS database.

      To aid in criminal investigations, the automated information should be
made accessible to users who are involved in investigations. This has been
achieved through implementation of the JABS Query Tool, resulting in a
decrease in the time it takes to identify existing booking information for
offenders currently found in the database. However, not all planned
functions of the Query Tool that would assist investigators have been
implemented. Specifically, the Query Tool does not allow fingerprints to be
viewed or printed and does not yet provide an electronic line-up capability.

      Establishing an Offender Tracking System

      The goal to establish an offender tracking system is not fully described
in JABS program documents, and no objectives defining exactly who should
be placed in the database have been established. The JABS Program
Management Office told us that it had not focused on this goal yet because
the priority after September 11, 2001 had been to deploy rapidly the
booking stations. The Acting Program Manager told us that no work has
been scheduled yet regarding the offender tracking system but that work will
be completed at some future, but as yet unspecified, time.

       An effective tracking system for federal offenders would require a
complete database, meaning that all records should be included that meet
some definition of completeness, that is, users should know who they can
expect to find in the database. An effective tracking system would also
require that information found in the records should be accurate enough so
that law enforcement users can identify an offender’s status and location.
JABS program documents specify functions related to tracking the status of
an individual within the federal judicial system, so that an authorized user
would be able to locate persons and determine their status and the
disposition of their case. Such functions include requirements to store:

      •   the location where the offender is serving the sentence and the
          date of arrival at the facility;

      •   the disposition of each case and the date that the sentence is due
          to expire; and

      •   a history of changes to an offender’s location.


                                        v
        We found that the JABS program has begun to establish the tracking
system by creating the database and establishing the above requirements,
but that not all Department arrests are being recorded through JABS. We
also found that the case disposition and history of changes to an offender’s
location had not been implemented. The location where the offender is
serving the sentence and date of arrival are being recorded only for the
initial commitment to BOP facilities. If an offender is moved to a different
facility, the new location is not being recorded. Additionally, changes are
made to the JABS database only when a user takes voluntary action to send
the change.

     Goals and Objectives Summary

       During our audit, the JABS program partially met its objectives for
Department law enforcement users. The JABS program has automated the
booking process for Department components and provided an automated
interface with IAFIS at deployed locations, thereby ensuring the rapid and
positive identification of offenders at deployed locations. JABS reduced the
time needed to submit information to IAFIS, and the IAFIS response time
has been cut back from weeks to hours, or even less time, at deployed
locations. JABS has also reduced some redundant steps within agencies,
such as fingerprinting a person only once in each component, but some
users still complete hard-copy forms manually that duplicate information
that has been entered into the ABS.

       JABS has also enabled users to share information by viewing and
printing information created by other components. However, the program
has not yet resulted in data sharing capabilities that would allow components
to eliminate redundant steps or data entry between components. Both the
USMS and the BOP re-enter data on offenders that has already been entered
in JABS by other participating agencies. The system is also supposed to
allow users to create electronic mug shot line-ups and view and print
fingerprints; however, these functions were not available during our audit.

      The JABS program has begun establishing the offender tracking
system, but this function has not been fully planned and the Core JABS data
repository does not reflect all data needed for tracking offenders through
disposition. Not all current arrests by the Department are being recorded
through JABS, so the information is incomplete, and no goals have been
established defining who should be included in the database. Additionally,
corrections or updates to information contained in the repository are not
necessarily updated in JABS.


                                      vi
Extent of Deployment

      The performance measure related to deploying JABS was to establish
100-percent connectivity to components’ automated booking systems.
Program officials told us that this performance measure is interpreted to
mean that JABS is capable of transmitting and processing bookings with
each component’s automated booking system, even if only one station is
deployed in a component. This connectivity has been achieved.

      Priority for Deployment After September 11, 2001

       JABS program officials told us that priorities for the program shifted
after the terrorist attacks on September 11, 2001, when only the
Drug Enforcement Administration’s (DEA) automated booking capability was
linked to JABS. Resources were diverted away from reducing duplication
and making other improvements to the Core JABS to implementing JABS at
additional components and deploying JABS workstations. The objective was
to give law enforcement quick access to the FBI’s IAFIS. Other aspects of
the JABS mission were postponed until the number of JABS workstations
requested could be fulfilled.

      Status of Deployment

       As of November 2004, the JABS program had provided automated
booking capabilities to all of the Department’s law enforcement components,
and to 841 Department locations, or about 77 percent of the requested
booking locations. The implementation began with an early version of the
system at the DEA in July 2000, followed by the USMS and FBI in
August 2002, and the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF), which started a pilot office in December 2003. The last Department
component to begin JABS operations was the BOP in April 2004, but all of its
locations had been equipped with JABS stations in the summer of 2002. All
locations that have been requested as of November 2004 by the DEA have
been linked to JABS. The following table shows the status of deployment in
each component.




                                      vii
           Comparison of the Number of Deployed Sites to the
        Number of Sites Requested by the Department Components
                            November 2004

                             Number of                     Percentage of
                                              Number of
           Participating       Sites                      Deployed Sites to
                                              Deployed
           Component        Requested by                     Requested
                                                Sites
                            Components                    Number of Sites
               ATF               146           37             25%
               BOP               139          120             86%
               DEA               285          285            100%
               FBI               235          235            100%
              USMS               285          164             58%
            DOJ Totals         1,090          841             77%
         Source: Joint Automated Booking System Program Management Office

      However, JABS has not been sufficiently deployed to ensure that all
Department arrests are booked through JABS or submitted electronically to
IAFIS. Based on the number of arrests reported to us by components, the
percentages of arrests that had been booked through JABS for the DEA, FBI,
and USMS through July 2004 are shown in the following table.

              Percentage of Component Arrests Booked in JABS
                      FY 2002 Through July 31, 2004

                    Fiscal Year     DEA         FBI       USMS
                      2002         13%         <1%         3%
                      2003         30%         24%        96%
                      2004         44%         47%        90%
                 Source: Joint Automated Booking System Program
                 Management Office

       There are no specific objectives establishing that all persons, or which
specific persons, who are detained or arrested by the Department’s law
enforcement components should be booked through JABS. JABS program
officials told us that there are no goals to make the system available for all
Department bookings and that the Department does not require bookings to
be recorded in JABS, even at deployed locations.

      JABS was also implemented beginning in September 2002 at the
then – Immigration and Naturalization Service (INS) as part of its efforts to
make FBI fingerprint data available to immigration and border officials. The
system had been deployed to 121 locations by the time the INS became part
of the DHS in March 2003.


                                           viii
      The JABS program will provide services to any federal agency that is
required to submit fingerprints to the FBI. The only organization outside the
Department that uses JABS for a significant number of bookings is the DHS.
The National Institutes of Health Police and offices of the U.S. Army Police
have also connected to JABS to submit bookings. Several additional
agencies have expressed interest, and JABS program officials are in
discussions with them. A handful of Department and other organizations,
such as the Federal Protective Service and the Postal Inspection Service, are
connected to the JABS Query Tool for purposes of accessing information
only, not to perform bookings.

     Delayed Deployment at the BOP

       We identified a nearly two-year delay in implementing the system at
the BOP after all the requested equipment had been installed. All of the 240
workstations that were requested by the BOP were installed between June
and August 2002. However, the BOP only began submitting JABS
transactions successfully in the spring of 2004, nearly two years after
installation. In addition to losing the use of those workstations and the
additional records that would have been created in the JABS database, the
BOP ABS software had to be redesigned, and the JABS program paid the
contractor for two design and development efforts. We calculate the
unnecessary costs of the delayed deployment to be $88,082.

      JABS program and BOP officials told us that the software resulting
from the initial design and development work done on behalf of the BOP had
major problems that were not discovered until after the program had
deployed all 240 workstations to the BOP’s requested sites. The Acting
Program Manager told us that the problem occurred for two reasons: 1) the
Program Management Office did not perform oversight to a sufficiently
detailed level to identify this problem during the software development
stage, and 2) the contractor did not follow the processes described in its
quality assurance plan.

     Future Expansion

      The JABS program plans for expansion through FY 2006 include
deploying additional workstations to the ATF, DEA, and USMS, and linking
with the U.S. Air Force Office of Special Investigations, the U.S. District
Courts, and possibly the Secret Service. The total deployment projected for
the ATF through FY 2006 will not fulfill the current request for booking
stations. The program also plans to convert the USMS automated booking



                                      ix
system to the web-based version of JABS by September 2005. The total
projected costs for FY 2005 were $20.3 million to cover all planned activity.

      Neither the components nor the JABS program could provide
documentation to support the number of sites that represent an optimal
number of booking stations for the Department. We attempted to determine
an approximate universe of possible sites in the Department’s law
enforcement organizations that could use a JABS station, absent any
funding, logistical, or operational constraints.

       Based on our assessment and with the exception of the ATF, the
number of sites that have been requested by the components are within
range of meeting what would be full deployment of JABS for the
Department, even if defined broadly to include JABS stations in virtually all
offices where offenders are booked.

      During 2004 the JABS program also implemented the capability for the
USMS to book offenders on behalf of other agencies. This capability could
be used to ensure that virtually all Department arrests, and other federal
arrests, are booked through JABS and transmitted to the FBI’s IAFIS
electronically for a quick identification response, but this potential has not
yet been realized.

      Deployment Summary

      By the end of November 2004, the JABS program had successfully
deployed automated booking capabilities to about 840 Department sites, or
about 77 percent of the requested booking locations. JABS stations had also
been deployed to other law enforcement organizations, primarily the DHS,
but also the National Institutes of Health Police and the U.S. Army Police.
The wide deployment, however, does not ensure that all Department arrests
are recorded in JABS, and the JABS program has no stated objectives
related to which persons should be booked through JABS.

Conclusion

       At the time of our audit, the JABS program had partially met its stated
objectives by: 1) automating the booking process for Department
components, including providing an automated interface with IAFIS that
ensures the rapid and positive identification of offenders at deployed
locations; 2) enabling users to share information by viewing and printing
information created by other components; and 3) beginning to establish an
offender tracking system.


                                       x
      However, the JABS program had not yet:

      •   resulted in data sharing capabilities that would allow components to
          reduce or eliminate redundant steps or data entry between
          components,

      •   completed implementing the data elements that would enable users
          to track offenders through disposition,

      •   ensured that information in JABS is updated to reflect the most
          accurate information available electronically,

      •   provided its planned electronic line-up capabilities, and

      •   resolved problems with the printing of fingerprints from the
          database.

       Additionally, JABS had been deployed widely, but does not ensure that
all Department arrests are recorded in JABS and transmitted electronically to
IAFIS. The program had implemented interagency booking capabilities at
the USMS that could be used to ensure that all Department arrests are
recorded in JABS, but the potential of this capability had not yet been
realized.

Recommendations

      Our report contains six recommendations to complete JABS stated
goals and to ensure that all Department arrests are included in JABS. Those
recommendations are for the Justice Management Division to:

  •   Develop, document, and implement a plan to complete or revise the
      project goals to share and exchange information in ways that reduce
      redundant steps between components, and to establish the offender
      tracking system.

  •   Coordinate with the USMS regarding the need to deploy JABS to all
      USMS sites taking custody of federal arrestees.

  •   Require that all federal offenders arrested by Department components
      be booked through JABS.




                                        xi
•   Work with the FBI to ensure that the ABS fingerprint quality screening
    procedures are enhanced to more closely mirror the FBI’s procedures
    when the non-proprietary quality control standard is released.

•   Develop a plan for future expansion of JABS. The plan should take
    into account interagency booking capabilities at the USMS, provide a
    clear definition of the universe of offenders to be included in JABS, and
    focus resources to optimize future expansion.

•   Establish and implement oversight procedures to ensure that
    contractors comply with their quality assurance plans.




                                    xii
                  THE JOINT AUTOMATED BOOKING SYSTEM
                           TABLE OF CONTENTS

INTRODUCTION…………………………………………………………………………………………………1

   Booking ......................................................................................... 2
   The JABS Pilot Project...................................................................... 3
   Nationwide JABS ............................................................................. 4
   The JABS Administrative Structure .................................................... 7
   Contracts..................................................................................... 10
   Participating Agencies.................................................................... 11
   Agreements ................................................................................. 12
   Funding ....................................................................................... 13
   Prior Audit and Evaluation Reports .................................................. 14

FINDINGS AND RECOMMENDATIONS ................................................... 15

   FINDING 1: The Extent to which JABS Meets Its Goals ...................... 15
      Goals and Mission ..................................................................... 15
      Automating the Booking Process ................................................. 16
      Sharing and Exchanging Booking Information ............................... 28
      Establishing an Offender Tracking System .................................... 33
      Conclusion ............................................................................... 37
      Recommendations..................................................................... 38

   FINDING 2: Extent of JABS Deployment .......................................... 40
      Purpose of Deployment.............................................................. 40
      Deployment Status ................................................................... 41
      Delayed Deployment at the BOP ................................................. 53
      Assessment of Sites with Low Transactions................................... 56
      Future Expansion ...................................................................... 59
      Conclusion ............................................................................... 61
      Recommendations..................................................................... 62

STATEMENT ON INTERNAL CONTROLS ................................................. 63

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 64

APPENDIX I:       OBJECTIVES, SCOPE, AND METHODOLOGY....................... 66

APPENDIX II:       TERMS AND ACRONYMS ............................................... 68

APPENDIX III:       IMPLEMENTATION MILESTONES ................................... 69

APPENDIX IV:        CERTIFICATION AND ACCREDITATION........................... 72
APPENDIX V:    JMD’S RESPONSE TO THE DRAFT AUDIT REPORT.............. 73

APPENDIX VI:   OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
               ANALYSIS AND SUMMARY OF ACTIONS NEEDED TO CLOSE
               THE REPORT .............................................................. 76
              THE JOINT AUTOMATED BOOKING SYSTEM

                             INTRODUCTION

      The Joint Automated Booking System (JABS) is a computer system
that helps federal law enforcement agencies book, identify, and share
information quickly about persons in federal custody. The
U.S. Department of Justice (Department) developed JABS to support its law
enforcement agencies in carrying out the Department’s mission.

      The purpose of this audit was to assess the extent to which the JABS
program was meeting its stated goals and to examine the status of
implementation of JABS. Our audit focused on efforts to implement JABS
from the time component representatives formally signed onto the project in
May 1999 through November 2004. Our specific audit objectives, scope,
and methodology are more fully addressed in Appendix I.

      In 1993 the Department began assessing the feasibility of automating
booking procedures in a way that could meet the needs of several of its law
enforcement components, rather than having each organization develop its
own unique system. The organizations included the Federal Bureau of
Investigation (FBI), the Drug Enforcement Administration (DEA), the United
States Marshals Service (USMS), and the Bureau of Prisons (BOP). JABS
now also serves the Department of Homeland Security (DHS), which
assumed the duties of the former Immigration and Naturalization Service
(INS) in March 2003 when it was transferred to the DHS from the Justice
Department, and the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF) which transferred into the Department of Justice in January 2003.

        The ATF, FBI, and DEA investigate crimes, arrest criminal suspects,
and work with the U.S. Attorney’s Offices and other federal, state, and local
agencies to coordinate criminal investigations. The USMS apprehends
fugitives, protects the federal judiciary, and provides for the confinement,
transportation, and processing of defendants. This responsibility for
defendants makes the USMS the central agency of contact for virtually all
federal offenders, regardless of local variations in how offenders are
processed or where they are confined. The exception to this rule is persons
detained by the DHS on immigration violations, who are not charged with
crimes but are denied admission to the United States, and who are generally
not brought to the USMS for arraignment and detention. The BOP confines
convicted offenders and many pre-trial defendants. All of these agencies
book people they detain or arrest, and the BOP commits offenders to its
facilities.


                                      1
Booking

       Law enforcement agencies book offenders by collecting fingerprints
and photographs, and recording information about the arrest and charges,
and the person’s identity, address, physical description, and other
information, which will be referred to as biographical data in this report. A
single arrest may involve as many as three distinct bookings, during which
the arresting agency, as well as the USMS and the BOP, may all capture
photographs, fingerprints, and biographical data. The diagram below
illustrates the stages in the processing of a federal offender.1

                           Federal Offender Processing




          Source: Nationwide Joint Automated Booking System, Concept of Operations,
          Version 1.0, November 17, 1999

      Federal offenders are generally booked first by the arresting agency,
which then takes the person to the USMS location, usually a cell block near a
federal court. Offenders may also be brought directly to a USMS location,



      1
          As used in this report, the term “offender” means anyone who has been detained
or arrested by a federal law enforcement agency.




                                            2
rather than to the arresting agency site, so the first booking in the diagram
may not occur.2

      The USMS books the person a second time, recording much of the
same information again in its legacy data system, the Prisoner Tracking
System (PTS). The USMS is responsible for the person’s confinement and
transportation pending arraignment and other court proceedings. Those
who are convicted and sentenced to incarceration are booked a third time,
recording much of the same information that has already been recorded
once or twice, at the BOP facility at which they begin their sentence. The
BOP enters data into its legacy data system, SENTRY.

      Prior to JABS implementation, information was recorded manually on
hard-copy forms in some agencies. In others, a data system was used to
record at least some of the information. Data captured on paper and in a
system limited to each agency made it difficult to share information among
federal law enforcement agencies. The arresting agencies completed
hard-copy forms to bring to the USMS detention facility when the offender
was transferred to USMS custody.

       In all Department of Justice components, fingerprints were recorded
on hard-copy forms (Form FD-249), and sent by mail to the FBI for
fingerprint identification services. Arresting officers generally had to take
the offender’s fingerprints several times to create multiple fingerprint cards
that were used for various purposes. Agencies normally received
identification responses from the FBI several weeks after submitting the
fingerprint cards. In addition, the fingerprint card might be rejected by the
FBI as unusable for identification because of poor quality. In these cases,
weeks could have passed before the arresting officer was aware there was a
problem with the fingerprint quality.

The JABS Pilot Project

       Recognizing the labor intensive and redundant nature of the booking
process, the Department established the Joint Automated Booking Station
Pilot Project in 1993 to study the feasibility of automating the booking
process and sharing data between agencies. The Pilot Project, which began
operating in February 1996, took place at eight sites in the Southern District
of Florida.

      2
         The USMS booking is also the initial booking when the USMS is the arresting
component, such as when a Deputy U.S. Marshal arrests someone based on a fugitive
warrant.


                                            3
      The JABS pilot operated on commercial hardware and software
components, including local servers, client workstations, cameras, printers,
and digital fingerprint scanners on local area networks (LANs) at the DEA,
FBI, USMS, INS, and BOP. The LANs were connected to a central JABS
server at the DEA’s Miami Field Office. Arresting agencies entered
fingerprints, photographs, and biographical information to create an
electronic record that was sent to the central server. When the offender was
transferred to USMS custody, the USMS could retrieve the existing record
from the central server, and review, supplement, and print the existing
information. The USMS also created a separate record of the arrest in its
legacy data system, the PTS.

        A National Institute of Justice evaluation of the JABS Pilot Project
published in Fiscal Year (FY) 1997 reported that the project successfully
demonstrated that automated bookings saved time, agencies could re-use
data originated by another agency, digitized fingerprints could be submitted
to the FBI, and a set of common data elements could be used by the
participating agencies. The evaluation recommended that a national JABS
initiative be developed and the pilot be continued to validate and refine
requirements and re-engineered processes, including the electronic
forwarding of fingerprints to the FBI and the interfacing of JABS with
components’ legacy data systems. The interface direction proposed
throughout the evaluation report would migrate data from the common point
of entry, JABS, into component legacy systems.

       The pilot system was terminated when planning for a national system
for the Department began in May 1999 and the server for the Pilot Project
failed in July 1999.

Nationwide JABS

      The project to implement JABS nationwide began in May 1999 when
representatives of the Department’s law enforcement components signed the
JABS Boundary Document, which established high-level requirements for a
nationwide JABS. At the same time, efforts began on the central JABS
system. Agencies were to be linked to the Core JABS and deployed
incrementally as they were prepared to move forward.




                                     4
      The Boundary Document stated the mission of JABS was to:
1) automate the booking process, 2) enable each law enforcement
organization to share and exchange booking information, and 3) establish a
federal offender tracking system. It presented the environment illustrated in
the following graphic, which generally reflects the environment in place
during our audit.

                               JABS Architecture




  Source: Nationwide Joint Automated Booking System, Concept of Operations,
  Version 1.0, November 17, 1999

      JABS is composed of two components: the Core JABS, labeled JABS
on the diagram above, and each participating agency’s Automated Booking
System (ABS). The entity on the diagram labeled EFIPS/IAFIS represents
communications between the Core JABS and the FBI’s fingerprint system,
the Electronic Fingerprint Image Print System (EFIPS)/Integrated Automated
Fingerprint Information System (IAFIS). The segment in the diagram above
labeled Browser represents the JABS Query Tool, which is part of the Core
JABS, but will be discussed in this report as a separate entity because it
performs a specialized function and users access it through web browsers,
independently from their ABS.

      With the ABS, officers use automated booking stations to capture
fingerprints and photographs in digital form. These, along with arrest and


                                          5
personal information, are formatted and transmitted electronically through
the central JABS server to IAFIS. IAFIS matches the JABS data against FBI
information to positively identify offenders and responds quickly to the
submitting officer, through JABS, with identifying information about the
person.3 The information stored in the national JABS database is available
using a web browser for querying, viewing, and printing by authorized JABS
users.

      Core JABS – The Core JABS is the central processing component that
communicates with participating agencies, validates and manages
transactions to and from the FBI’s IAFIS, stores booking data that can be
queried by users, and generates standard reports upon request. The Core
JABS uses communications services provided by the Department’s Justice
Consolidated Network (JCN).

       Agency Automated Booking System (ABS) – The JABS architecture was
built on the assumption that each participating agency would implement an
automated booking system within its own existing or planned technology
infrastructure. Each agency has its own version of an automated booking
station, all of which:

       •   collect fingerprints and photographs,

       •   collect or import information about the arrest and the offender,

       •   assess the quality of fingerprints to be sent to the FBI, and

       •   transmit and receive information to and from the Core JABS.

      During our audit, interfaces existed between the ABS and legacy
systems at the ATF, BOP, USMS, and DHS. In each agency, the legacy
system serves as the initial point of data entry. Data elements common to
both are migrated from the legacy systems to the ABS. Agencies then enter
any additional data elements required by JABS, and capture fingerprints and
photographs.

      After an agency creates a booking record, the ABS formats the data
into a “package,” and the information is transmitted to the Core JABS. A
booking package is an electronic compilation of biographical, photographic,
and fingerprint information on an offender that is created in a component’s

       3
          Positive identification means an identification based on a complete set of
fingerprints, which consists of 14 images.


                                               6
automated booking system. The packages are transmitted as attachments
to e-mail messages. The BOP, DEA, USMS, and DHS send and receive JABS
transactions through the agency’s communications networks, as reflected in
the diagram on page 5. FBI field offices use stand-alone booking stations
with dial-up connections to the DOJ network to communicate with JABS.4
The ATF uses a version of JABS that had not been implemented during our
site visits. This version sends transmissions through secure web
connections.

       Query Tool – The part of the diagram labeled Browser represents the
JABS Query Tool. Booking records are stored in a central data repository
that is available to authorized users for generating reports, and searching,
downloading, and printing booking records. Users connect to the Query Tool
using a web browser interface.

The JABS Administrative Structure

      To achieve implementation of the nationwide JABS, the Department
established a Board of Directors, an Advisory Group, and a Program
Management Office. The current administrative structure for JABS is
presented in the following organizational chart.




       4
          The FBI has two roles in the JABS. One is as a participating agency with JABS
users in field offices. The other is as a provider of identification services through IAFIS.
The FBI network shown in the diagram supports transmissions between the JABS and IAFIS,
but does not reflect FBI field office communications with the JABS.


                                             7
Source: The Joint Automated Booking System Program Management Office,
March 2004

        The Department’s Deputy Assistant Attorney General for Information
Resources Management, who is also the Chief Information Officer (CIO) for
the Department, chairs the JABS Board of Directors. The CIO reports to the
Assistant Attorney General for Administration, who heads the Justice
Management Division. As the chair of this Board, the CIO is charged with
facilitating consensus building among the participating components and
functioning as the liaison between the Program Management Office and the
Board.

      The Board consists of senior level officials from the ATF, BOP, DEA,
FBI, USMS, and DHS. It provides executive level policy and program
guidance to the JABS Program Management Office, reviews and approves
proposed changes to system requirements, and approves high-level



                                         8
documents, such as the JABS Systems Boundary Document, Concept of
Operations, and System Design Document.

      The JABS Advisory Group (JAG) consists of technical representatives
appointed by the participating components. Members are expected to be
thoroughly familiar with the system and have extensive knowledge of the
booking process and associated technologies. The JAG is intended to ensure
that communication occurs within participating components and that JABS
meets user requirements and expectations. A subgroup of the JAG, the
Security Working Group, consists of representatives from the BOP, DEA, FBI,
and USMS. The members identify security requirements and solutions and
perform reviews to ensure that JABS meets security standards. Both groups
are chaired by members of the JABS Program Management Office.

      The JABS Program Management Office is located within the CIO’s
Enterprise Solutions Staff. The Enterprise Solutions Staff manages and
oversees critical information technology projects to meet cost, schedule, and
performance goals. The Program Management Office functions as the
system integrator for JABS, putting together components from different
sources to build the system, with policy direction from the JABS Board of
Directors. The Program Management Office also performs centralized
monitoring and oversight, and provides a centralized budget function to
ensure the deployment of both JABS and the component’s automated
booking capabilities. Specific responsibilities of the Program Management
Office are to:

       •   manage the JABS program to deploy the system within budget and
           on schedule;

       •   ensure the operational availability and integrity of JABS services;

       •   maintain configuration control and coordinate the approval of all
           Core JABS system changes and enhancements;5

       •   present issues to the Board of Directors and chair the JABS
           Advisory and Security Working Groups;


       •   solicit user input, cooperation, and participation; and


       5
          Configuration control involves evaluating and then approving or disapproving
technical changes to the JABS architecture.


                                             9
      •   develop and submit an integrated budget and maintain program
          plans.

       The Program Management Office consists of an Acting
Program Manager and four full-time Department employees, although the
staffing allocation for FY 2004 was 7 full-time staff equivalents. In addition,
the Program Management Office contracts for the services of 19 full-time
and 3 part-time staff. The Program Management Office, including contract
staff, consists of individuals with expertise in areas including information
technology and security, systems administration, law enforcement, project
and financial management, and training.

      The Program Management Office also coordinates services provided by
the Justice Data Center. Core JABS operates on equipment housed at the
Justice Data Center located in the Washington, D.C. metropolitan area
(JDC-W). The Computer Services Staff at the JDC-W provides air
conditioned space, physical security, and backup services, including offsite
tape storage. The Network Service Center (NSC), which is part of the
Telecommunications Services Staff of the JDC-W, monitors and resolves
communications problems with the Department’s communications network
and serves as the first point of contact for user calls to a help desk. For
problems not based in network communications, the NSC forwards trouble
tickets to one of the JABS support contractors.

Contracts

      The Program Management Office has established four contracts to
provide support for JABS development and operations. One contract
supports 18 contract staff who provide administrative and operations
support in developing and maintaining documents such as project
management plans, budgets, risk management plans, configuration
management plans, quality assurance plans, and user and system
requirements. This contract also supports daily administrative activities,
including status reporting, financial accounting services, deployment of
booking stations, and user enrollment and training. The value of this
contract is $1.8 million.

      Technical system support is acquired through a $3.2 million contract
with another firm that designed, developed, and maintains the current
version of the Core JABS, provides operations support for the Core JABS at
the JDC-W, and resolves trouble tickets forwarded by the NSC. The
contractor also designed, developed, and provides operational and
maintenance support for components’ automated booking systems.


                                       10
      The JABS security program is supported through an $800,000 contract
that provides technical support on security requirements, security plans,
contingency plans, security test plans, and certification and accreditation
documents. The contractor independently validates security designs
developed by other contractors and conducts security testing to ensure
compliance with federal, Departmental, and program security requirements.

       The fourth contract requires the contractor to design, develop, and
deploy a web-based architecture for the Core JABS to serve as the platform
for future improvements. This will include providing a web browser-based
booking station capability. This contract was initially valued at about
$522,000, and was awarded to the same contractor that provides technical
support for security issues.

Participating Agencies

      All of the Department’s law enforcement components participate in
JABS to record bookings and the BOP records commitments to BOP facilities.
A few users in other Department components have access to search the
central database, including a U.S. Attorney’s Office and the U.S. Probation
Office.

       Other federal law enforcement agencies are permitted to become JABS
users also. As of September 2004, users from outside the Department of
Justice included the Department of Homeland Security (DHS), the U.S. Army
Military Police, and the National Institutes of Health Police.6 These other
agencies perform very small numbers of transactions, with the exception of
the DHS.

      The DHS is the largest participating agency outside the Department.
The DHS’s Bureau of Customs and Border Protection (CBP) and Bureau of
Immigration and Customs Enforcement (ICE) assumed the border and
enforcement duties of the former INS on March 1, 2003. The JABS Program
Management Office was initially responsible for providing equipment and
services to the INS, as with other Department components. Beginning in
July 2001, the JABS Program Management Office was no longer responsible
for program services to the INS, as a separate program office assumed


       6
          In addition, the JABS Program Management Office has identified other potential
users including the Federal Protective Service, Secret Service, Coast Guard, and
Transportation Security Administration.


                                            11
responsibility for coordinating services to the INS.7 The new program office
was established to support a project specifically concerned with building
capability for the INS and FBI to share fingerprint data (the IDENT/IAFIS
integration project). Also, with the transfer of the INS to the DHS in
March 2003, the DHS became responsible for funding its own equipment
costs for JABS.

       The JABS program evolved at roughly the same time as serious
problems surfaced regarding the lack of integration between fingerprint
systems operated by the INS and the FBI.8 The Department established a
project to integrate the two systems, which were the INS’s Automated
Biometric Identification System (IDENT), based on 2 fingerprints, and the
FBI’s IAFIS, which uses 10 fingerprints. In September 2002, the INS began
deploying its JABS-compatible ABS, which it called IDENT/IAFIS. Multiple
versions of this ABS have added functionality incrementally, to the point at
which the IDENT/IAFIS ABS has been integrated with the DHS legacy data
system, ENFORCE. The DHS currently uses JABS as the link between border
officials and the FBI’s fingerprint identification services, which DHS
representatives told us currently supports part of the IDENT/IAFIS project.

Agreements

      The JABS Program Management Office and participating agencies enter
into Service Level Agreements defining their roles and responsibilities. As of
September 2004, agreements had been established with the ATF, BOP, DEA,
FBI, and USMS. According to these agreements, the Program Management
Office is responsible for providing:

       •   a reliable and speedy interface to the FBI’s IAFIS, with validation of
           each booking package prior to transmission to eliminate
           administrative errors that could result in rejection of the package;

       •   access to JABS booking records and the capability to export data in
           JABS to the agency booking system;

       •   a query and search capability using a standard web browser; and



       7
         From late 2000 until July 2001, the JABS Program Management Office functioned
as the program office for the IDENT/IAFIS project, until the separate office was established.
       8
        See the Office of the Inspector General, Evaluations and Inspection
Report No. I-2005-001 on the IDENT/IAFIS integration project.


                                             12
       •   a help desk that continuously monitors network performance and
           tracks resolution of service-related products.

Responsibilities of the user agencies include:

       •   designating an Agency Coordinator, Agency Security Manager, and
           Local Agency Coordinators;

       •   providing an automated booking capability with applicable
           interfaces to JABS;

       •   providing appropriate operations support;

       •   coordinating all automated booking capability and related software
           and interface changes with the Program Management Office;

       •   maintaining security certification and accreditation of the user
           agency network and automated booking capability that is interfaced
           with JABS;9 and

       •   establishing policies to ensure the timeliness and quality of data
           entered into JABS.

Funding

      Funding for JABS has been provided from congressional
appropriations, the Department’s Working Capital Fund, and the Asset
Forfeiture Fund. Total funding for the nationwide project for FY 1999
through FY 2004 was about $82,670,000.

      As originally conceived in 1998, JABS was anticipated to have total
developmental costs of $160 million from FY 2000 through FY 2004. These
costs were based on plans for a distributed architecture consisting of 94 local
servers (one for each judicial district), connected to 6 regional servers, with
redundancy provided by back-up servers. Each regional server would
contain all the information for the individual servers in its region and would
be used to submit fingerprint packages to IAFIS. However, this architecture
was never implemented. The FY 2000 appropriation for the JABS program

       9
         In the Department, the certification process includes completing a Security Risk
Assessment, Sensitive System Security Plan, Security Operating Procedures, Security Test
and Evaluation, and Certification Statements. When these items are completed a system
can be accredited for use. See Appendix IV for additional information about this process.


                                            13
was significantly reduced from the FY 1999 level, and uncertainty regarding
future funding contributed to a slow-down in progress. By the time the
funding level was restored for FY 2001, the architecture had been
redesigned to take advantage of technical advances on the Department’s
communications network and web technology that would support a central
database. The revised centralized architecture permitted a significant
reduction in current costs.

Prior Audit and Evaluation Reports

       In September 1998, the OIG issued an audit of the Department’s Joint
Automated Booking System Laboratory (Report No. 98-28). The audit
identified significant weaknesses in the management and planning for JABS.
Specifically, the audit found that the Pilot Project did not meet its original
schedule for completing its operational testing. As a result, two Department
agencies, the DEA and USMS, developed their own automated booking
stations. The audit also identified project management and security
weaknesses that needed to be addressed to ensure they were not replicated
in the nationwide system planned for development. Corrective action on the
audit recommendations was completed in January 2000.

      In March 1999 the OIG issued another audit report (Report
Number 99-06), which focused on selected computer security controls in the
JABS pilot system to determine whether those controls protected the system
and its sensitive data from unauthorized use, loss, or modification. The
audit found several system weaknesses, including significant lapses in
security surrounding password usage, and dormant accounts that were still
active after 180 days of non-use. This audit was closed in January 2000
based on the termination of the Pilot Project.




                                      14
                  FINDINGS AND RECOMMENDATIONS

FINDING 1: The Extent to which JABS Meets Its Goals

     Currently the JABS program partially meets its stated
     goals, but improvements are needed. The program has
     automated the booking process in the Department’s law
     enforcement components and provided an automated
     interface with IAFIS, ensuring the rapid and positive
     identification of offenders at sites where it is deployed.
     Automation has also streamlined part of the booking
     process by reducing the number of times fingerprints are
     captured within an agency. Basic data sharing has been
     provided through the Query Tool, with components sharing
     one another’s offender data by viewing and printing
     information from the central JABS repository. However,
     we found that the system does not reduce booking steps
     through data sharing as envisioned, resulting in
     component redundancy and duplication of effort. We also
     found that the offender tracking system was incomplete,
     reducing the agencies’ ability to track offenders.

Goals and Mission

        The goals and mission of the JABS initiative varied somewhat from the
initial effort under the Pilot Project to the current implementation. For the
Pilot Project, the JABS goals were to: 1) streamline the booking process
through automation and elimination of duplication, 2) allow updates to
prisoner data, 3) standardize data collected, and 4) improve the process to
identify repeat offenders and persons with outstanding charges. The
Department considered the Pilot Project a success and decided JABS should
be implemented nationwide.

      The Executive Summary of the 1999 Boundary Document described
the major goals of JABS as being to: 1) automate the booking process,
2) enable each law enforcement organization to share and exchange booking
information, and 3) establish a federal offender tracking system. These
goals were jointly accepted by officials from JMD, the BOP, FBI, DEA, USMS,
and INS as the basis of establishing requirements for the nationwide JABS,
guiding the development and implementation of JABS, and expressing the
commitment of and agreement between the JABS Board of Directors and the
JABS Program Management Office.



                                     15
       The JABS Program Management Office also projected in the
Boundary Document that JABS would ensure the rapid positive identification
of offenders, reduce or eliminate redundant booking steps, and aid in
criminal investigations. We consider the rapid positive identification of
offenders to be a component of Goal 1 and the intentions to eliminate
redundant booking steps and aid in criminal investigations to be components
of Goal 2. The discussion below summarizes the progress made in
accomplishing each of these goals.

Automating the Booking Process

      The JABS Boundary Document describes goals and objectives related
to automating the collection of offender data, providing connectivity to each
component’s ABS, and ensuring the rapid positive identification of offenders
through the FBI’s IAFIS. The JABS program projected that achieving these
goals would result in decreased fingerprint transmittal time to the IAFIS,
decreased rejection rates for fingerprint sets submitted to the FBI, and a
streamlined booking process.

       To automate this process, the JABS program needs to deliver the
capability for each Department law enforcement component to:
1) electronically record standardized booking data, including digitized
fingerprints and photographs; 2) transmit usable data to IAFIS securely for
identification; and 3) receive responses from IAFIS quickly. Streamlining
the process within each component could result from reusing information
that has been entered once into the ABS.

      We found that the JABS program has automated the booking process
in each Department law enforcement component and the DHS, and provides
the necessary connectivity to send fingerprints to the FBI for identification,
and receive responses quickly from the FBI. As we discuss in Finding 2,
these capabilities are available at many, but not all, of the Department’s
booking locations. We also found that JABS recently added the capability for
the USMS to submit bookings to JABS and fingerprints to IAFIS on behalf of
organizations and locations that do not have access to their own ABS.

      In terms of outcomes, we found JABS has resulted in significantly
decreased transmittal time for fingerprints to the FBI, which, in turn, makes
a response available within hours rather than weeks. Fingerprint sets sent
to the FBI through JABS also have a slightly lower rejection rate than all
criminal hard-copy sets submitted, and additional improvements may be
possible from future technology advances. The booking process streamlining
has been partially achieved by reducing the number of times a component


                                      16
has to take a set of fingerprints. However, participating agencies still
manually complete hard-copy forms, containing information that has already
been recorded in the automated booking station, which are then brought to
the USMS detention facility when the offender is transferred to USMS
custody. The details supporting these conclusions follow.

       Participating Agency Automated Booking Systems (ABS)

       All of the component automated booking systems run on workstations
consisting of desktop computers attached to cameras, digital fingerprint-
capture devices (live scanners), flat-bed scanners (for scanning hard-copy
fingerprint cards), and printers. The workstations provide a graphical user
interface from which users select various booking tasks to perform, such as
capturing fingerprints and photographs. Once recorded in the ABS,
fingerprints and photographs can be printed out as many times as the user
chooses.

      Those agencies with an interface from their legacy system
automatically populate data elements in the ABS screens with the
appropriate data when a user begins work on that record. The booking
agents then record data elements that have not come over from another
system, take the offender’s fingerprints and capture photographs. Before
transmitting the data to Core JABS to be validated and forwarded to IAFIS,
users check that the package meets certain standards through validation
routines on the booking station. They can make corrections or changes to
the information, or re-take fingerprints, if necessary. The fingerprint quality
screening identifies specific fingers that do not pass the quality tests, and
only the fingers at issue need to be re-rolled. When the ABS record is
complete and has been validated, it is transmitted to the Core JABS. Users
recording information in an ABS are not connected to the central JABS
database.

      Through the ABS, users can process different types of transactions
that vary somewhat between participating agencies. The transaction types
are described below.10

       Bookings – Bookings are used to record a federal arrest, submit
       criminal information to the FBI’s IAFIS and JABS, and obtain

       10
          The Department uses JABS communications services for some transactions that
are not part of the JABS database and have nothing to do with bookings. These
transactions send small numbers of latent fingerprints and the fingerprints of civil applicants
to the FBI, and are not included in the descriptions above.


                                              17
identification and a criminal history (commonly called a rap sheet)
from the FBI. The FBI’s identification is based on 10 rolled fingerprints
and 4 flat images. A positive identification from IAFIS requires an FBI
fingerprint specialist to verify any match that the system has
identified. A booking transaction receives an identification response
from IAFIS, and the information is retained in JABS and IAFIS.

Second-tier bookings are performed by USMS detention facilities when
arresting agencies transfer custody of prisoners to the USMS. These
bookings are identified by JABS as “criminal history” transactions, but
the USMS refers to them as bookings. This transaction type generates
the same response from IAFIS as a booking, so the USMS receives the
identification response and rap sheet. The difference is that it is not
stored in IAFIS. It is stored in JABS, along with data input by the
USMS. The same applies to the third-tier bookings performed by the
BOP to obtain positive identification from IAFIS upon the initial
commitment of an offender to a BOP facility.

Interagency Bookings – This transaction type, implemented in
June 2004, is designed to allow the USMS to submit booking data to
IAFIS on behalf of other arresting agencies. Any arrest made by a
federal law enforcement agency that routinely brings suspects to the
USMS for booking can now be entered into JABS, and therefore IAFIS,
through a USMS detention facility that has been equipped with this
version of the ABS software. The identification response and the rap
sheet from IAFIS can be transmitted to both the arresting officer and
the USMS location. The arresting agency no longer needs its own
access to JABS.

Updates – Arresting agencies and the USMS may submit additional
information or changes to records that have been created in JABS
through bookings and criminal history transactions. JABS verifies that
an update transaction is associated with an original transaction by
comparing the fingerprint images for the package identifier.

Inquiries – An inquiry is used to obtain a criminal history on a person,
based on an FBI fingerprint identification, either prior to an arrest or in
other law enforcement activities not associated with an arrest, for
example, to obtain information about confidential informants. The
information is not stored in either JABS or IAFIS. The DHS calls this a
“search with verification.”




                                 18
     Search, Quick Search, or Ten-Print Rap Sheet Requests (TPRS) – This
     transaction, which the DHS calls a “quick search,” is based on a
     service the FBI performs only for the DHS to help meet the specialized
     needs of immigration and border officials who need to quickly identify
     any reasons for denying entry to persons trying to enter the U.S. The
     search is based on 10 rolled prints and minimal biographical data. It is
     a completely automated search of the IAFIS fingerprint files, without
     human verification. It returns possible matches, rather than a verified
     identification, to the DHS very quickly. According to the FBI, it is rare
     for IAFIS to present more than one possible match. After the DHS
     receives the information, officers can determine whether to go ahead
     with a search with verification, and then a booking, depending on the
     circumstances. According to DHS officials, this transaction type
     currently supports part of the IDENT/IAFIS project by allowing DHS to
     search IAFIS and receive a fast response.

      As of November 2004, the following participating agency booking
stations had been brought online.

     The ATF Automated Booking Station (ATF ABS) was linked to the
     Core JABS in December 2003, and the ATF began submitting bookings
     from one site in January 2004.11 As of November 2004, the ATF was
     still in the process of deploying the majority of its planned booking
     stations. This first booking station, located in Richmond, Virginia, was
     part of a pilot test and was based on the ABS in use at FBI field
     offices. The ATF told us its ABS receives some data elements from the
     ATF’s legacy database system, N-FORCE, needed to populate JABS
     data elements. Users enter supplemental information into the ABS,
     including fingerprints and photographs. According to the JABS
     Program Management Office, the ATF is currently deploying the first
     agency-wide ABS to use the new web-based version of JABS.

     The BOP Automated Booking Station (BOP ABS) is linked to the BOP’s
     legacy data system, SENTRY. SENTRY is an online, real-time,
     database management system that monitors the system-wide
     movement and management of inmates, including sentence
     computations, work assignments, institution designation,
     administrative remedies, discipline, and inmate financial responsibility.
     The BOP’s automated booking station functions as an integrated part
     of the SENTRY system, and was first linked to the Core JABS in
     October 2002, although successful operations did not begin until

     11
          The ATF transferred into the Department of Justice in January 2003.


                                            19
       April 2004.

       The DEA Firebird Booking Service (FBS) is part of DEA’s Firebird
       information system infrastructure. Firebird includes a
       Case Management System that provides a custom user interface for
       creating, editing, storing, retrieving and printing case-related material.
       The DEA developed its automated booking station as a component of
       the Firebird Case Management System and linked it to the Core JABS
       in July 2000. The DEA is the only component that uses a version it
       calls “JABS Lite” at smaller offices. The difference from a standard
       ABS workstation is that the Lite version comes with only a flatbed
       scanner to scan in hard-copy fingerprint cards. There is no live-scan
       fingerprint device attached to the station.

       The FBI Automated Booking Station (FBI JABS) is a stand-alone work
       station that is not connected to any other FBI system or network. It
       transmits data using dial-up connections to the Core JABS. This ABS
       was based on the DEA’s Firebird Automated Booking Station to
       leverage software that had already been developed, and was modified
       to meet the FBI’s requirements. The FBI linked the FBI ABS to the
       Core JABS in August 2002.

       The USMS Automated Booking Station (USMS ABS) is interfaced with
       the USMS legacy data system, the Prisoner Tracking System (PTS),
       which is an old application running on a network of distributed
       application and database servers. The USMS officers enter information
       about an offender first into the PTS. Some of that information is then
       migrated into the ABS when the user selects the ABS menu option
       during the booking procedure. The USMS linked its ABS to the Core
       JABS in August 2002.

       The DHS IDENT/IAFIS captures data on persons being detained by the
       DHS for immigration purposes, and meets needs that vary significantly
       from the other law enforcement agencies.12 DHS users in the Bureau
       of Customs and Border Protection need to identify people accurately to
       decide whether to let them into the United States, or detain or arrest
       them. The DHS’s primary legacy systems supporting border functions
       are the ENFORCE and IDENT systems. Many locations now use an

       12
          IDENT is an acronym for the DHS’ Automated Biometric Identification System.
IDENT is a 2-print fingerprint system used by the DHS to verify the identity of previously
encountered aliens. IDENT compares prints against its Lookout and Apprehension
databases.


                                             20
      integrated workstation in which users record data elements once and
      can access functions of the two legacy systems and IAFIS (through
      JABS). When the information has been recorded, users select the
      types of transactions to perform, which include three transaction types
      involving the Core JABS and IAFIS: the booking, quick search, and
      search with verification (or inquiry) described above. The initial
      version of this system was deployed first in September 2002.

       After using the ABS, many arresting agencies still manually complete
various hard-copy forms to accompany offenders when custody is
transferred to the USMS. Different USMS facilities require variations of the
forms. These forms contain data elements that have already been entered
into the ABS. This duplication is further described in the section of this
finding headed Sharing and Exchanging Booking Information.

      Core JABS

      The initial version of the Core JABS became operational in
July 2000. In subsequent months, modifications to the Core JABS were
placed into production incrementally, and in June 2004, Version 3.0, which
offers a three-tier, web-based architecture, became available for future
deployment.

      The Core JABS is described in JABS system documents as a “store and
forward” system that receives information from law enforcement agencies,
stores some of the information in a database, and forwards the information
to the FBI’s IAFIS. Updates to booking or criminal history transactions
coming into the Core JABS are not forwarded to IAFIS, but are maintained
as separate transactions in the nationwide JABS database. After receiving a
response from IAFIS, the Core JABS forwards the response to the original
submitter of the information. JABS does not compare fingerprints to identify
people.13

      The architecture for the Core JABS is based on commercial
off-the-shelf components and resides at the Justice Data Center outside
Washington, D.C. The data center is operated by the Justice Management
Division and provides planning, management, facility services, and




      13
          The Core JABS does compare fingerprint images from one package with submitted
updates to make sure the update belongs to the package being updated.


                                          21
operational support for the Department of Justice. Warm-site redundancy
for JABS is provided at the Justice Data Center in Dallas, Texas.14

       Interface with the FBI’s IAFIS

       JABS implementation has automated the transmittal of fingerprints to
the FBI and the receipt of identification and criminal history responses from
the FBI for locations at which an ABS has been deployed. Automating the
collection and transmission of offender fingerprints was projected to
decrease transmittal time to the FBI by 90 percent and decrease the
percentage of fingerprints rejected by the FBI. We determined that the
timeframes for submitting and receiving fingerprint information had
decreased dramatically, and that the rejection rates for fingerprints by the
FBI may have improved somewhat.

      According to representatives of participating agencies we interviewed,
fingerprint transmittal time to IAFIS has improved exponentially. The
improvement is based on the nearly instantaneous transmittal of packages
to the Core JABS, which, in turn, forwards each package to IAFIS. After
receiving the response from IAFIS, the Core JABS returns the IAFIS
response to the source within two minutes.

      We determined that the time it takes from submitting fingerprints to
the FBI and receiving a response has decreased from several weeks to a
matter of hours, and sometimes minutes. Sources including the FBI and
JABS Board representatives confirmed that before JABS the process took
several weeks to receive a response back from the FBI. In many cases, that
response may only inform the arresting officer that the fingerprints were not
of acceptable quality to use for identification. Agency representatives and
users agreed that they receive responses back very fast now, although the
exact timeframes varied between agencies. Staff we interviewed indicated
they were receiving responses generally within one to three or four hours,
with the exception of DEA staff, who stated that the process may take as
long as overnight. Staff at the JABS Program Management Office told us
that this was likely a function of the DEA network. In any event, the
improvement over mailed hard-copy fingerprints remains significant.




       14
          A warm-site is a backup site that is prepared for systems restoration but that
does not contain all of the components necessary to do an immediate restore of all business
functions. In the event of an emergency, the hardware and software additions needed to
get the system operational may cause a delay.


                                            22
      Additionally, DHS representatives told us that the response time from
the FBI for quick search/TPRS transactions occurred within minutes, and
could be as little as several seconds.

      Fingerprint rejections by the FBI were projected to decrease with
implementation of JABS. This expectation was based on administrative
reasons for rejection, such as inconsistent data elements. However,
according to the FBI, administrative errors cause less than 7 percent of the
rejections. The use of software to assess the quality of fingerprint images at
the point of entry and to interact with the user to obtain a good set of
fingerprints should also be expected to reduce the number of rejections by
the FBI.

       In order for fingerprints to be usable by IAFIS, they must meet quality
standards which conform to standards set by the National Institute of
Standards and Technology and the FBI’s Electronic Fingerprint Transmission
Specification. Before attempting to match fingerprints through IAFIS, the
FBI screens them for usability and rejects sets that do not meet the quality
criteria.

      Participating agencies’ automated booking systems all use
commercially available software to assess and validate the quality of
fingerprint images. During the validation process, the software alerts the
user to fingerprints that do not meet quality standards, and the user can
re-record the identified fingerprints. These products have been approved by
the FBI for the submission of fingerprints, but do not guarantee that 100
percent of submissions will be determined usable for IAFIS. Also,
transmission anomalies might garble a small percentage of fingerprints
during transmission.

      The FBI, however, has not shared with the JABS program the quality
screening process used in IAFIS, so each component’s ABS does not pre-
screen fingerprints with precisely the same quality validation process the FBI
uses. The FBI told us that the National Institute of Standards and
Technology is in the process of developing a non-proprietary standard for
quality control of fingerprints, and that the FBI and vendors will move
toward this standard once it is released. FBI officials indicated they prefer
for the JABS program to wait for the non-proprietary standard to be released
before implementing additional fingerprint quality control.

       The ABS also allows users to override the fingerprint quality screening
for individual prints, and submit a set of prints in which not all prints have
passed the acceptance process. Booking officers told us that overriding the


                                      23
ABS process is sometimes necessary because of problems with a subject’s
fingers, such as scars and stains. During site visits and interviews, many
users complained about the sensitivity of the live-scan equipment, and most
agreed that it was difficult to get JABS to accept fingerprints from people
with thin or short fingers. We discussed this concern with the JABS Program
Management Office staff, who told us they are anticipating purchasing new
generation live-scan equipment that will hopefully alleviate the problem.

      Fingerprints may be accepted for processing by IAFIS, even when one
or more of the prints have not passed the ABS screening, and FBI officials
indicated the FBI has the ability to improve the usability of some images.
The imperfect fit in procedures between the ABS and the FBI in screening
the quality of fingerprint images results in the FBI continuing to reject some
fingerprint submissions received from JABS. The fact that the ABS rejects
fingerprints that may be accepted by the FBI may encourage users to
override the ABS quality screening.

      Although rejections of federal fingerprint submissions to IAFIS may
have decreased since JABS implementation, we were not able to obtain
baseline data about past performance by federal law enforcement on
hard-copy submissions to measure any direct improvement. However, we
were able to obtain data showing recent differences between electronic
submissions from JABS, and all hard-copy criminal fingerprint submissions to
IAFIS.

      We obtained information from the JABS program and the FBI about
fingerprint rejection rates for both JABS electronic transactions and
hard-copy submissions. The FBI provided summary information that 3.4
percent of criminal fingerprint sets submitted electronically through JABS
from October 1, 2003, through April 30, 2004, were rejected, compared with
a rejection rate of 3.8 percent for all criminal hard-copy fingerprint
submissions to IAFIS.15 This represents a difference of about 11 percent,
favoring the JABS electronic submissions.16 This is not a direct measure of
any improvement that may be experienced by federal law enforcement, but
suggests that some improvement may result from automating the process.


       15
         The criminal hard-copy submissions include criminal submissions from all law
enforcement agencies, combining federal, state, and local submissions.
       16
          This is true for criminal fingerprints submitted. It does not include fingerprints
submitted for the Civil Applicant System, which is a program for fee-paying users who
submit fingerprint requests to IAFIS for background checks, primarily for job application
purposes.


                                              24
      We also reviewed summary data in the Core JABS Metrics Summary
Reports for FYs 2002, 2003, and 2004 through July. IAFIS rejection rates
reported by the Core JABS for FYs 2002, 2003, and 2004 through July are
shown in the table below.17

                                   IAFIS Rejection Rates

                           Fiscal Year JABS Percent Rejected
                              2002            12.2%
                              2003             4.3%
                              2004             3.2%
                         Source: JABS Program Management Office

      Although these numbers do not compare hard-copy and electronic
submissions, they do clearly show a pattern of improvement over time in the
electronic submissions themselves. It is possible that rejections may
decrease further in the future as JABS technology improves and users
become more practiced with the equipment.

       FBI officials indicated that an additional quality checking procedure,
sequence checking, might help to decrease the number of rejections even
further. Sequence checking is a process that ensures fingerprints are in the
proper location in the record by comparing flat four-finger images with
individual finger images. This procedure was not included in the ABS quality
screening of fingerprints during our audit.

      An FBI CJIS representative told us that about 4 percent of rejections
were due to sequence inconsistencies, not just from JABS, but from all
submitters. The Program Management Office indicated it had begun
implementing sequence checking around September 2004. The Acting
Program Manager agreed with the FBI that a sequence validation check
should further reduce the number of rejections from IAFIS.

       System Performance

       For this audit, we assessed system performance in terms of the
Core JABS availability and internal processing time. To determine if the Core
JABS availability and internal processing times were adequate, we obtained
criteria specific to both and compared the criteria to JABS internal reports
detailing actual availability and processing times. In addition, we

       17
           We were unable to reconcile precisely the JABS metrics data with the summary
percentage provided by the FBI for October 2003 through April 2004. The FBI told us that
the figures it provided did not include rejection rates for U.S. territories, which may explain
the difference.

                                               25
interviewed participating agency representatives and users about whether
they had any problems with the availability or response times from JABS.

      System Availability – The JABS program’s performance goals and
measures include making Core JABS available 24 hours a day, 7 days a
week, because bookings can occur at all hours. We obtained summary
information from the JABS Program Management Office for October 2002
through February 2004. The reported percentage of availability, by month,
was between 91 and 100 percent for the entire period, with only two months
of the entire period below 97 percent, as shown in the following graph. As
of December 2004, the Program Management Office reported overall system
availability of 99.5 percent for FY 2004, and 99.8 percent for the first two
months of FY 2005.


                                          JABS Availability
                                 October 2002 – February 2004


      100%
       98%
       96%
       94%
       92%
       90%
       88%
       86%
       84%
             Oct- Nov- Dec- Jan- Feb- Mar- Apr- May- Jun- Jul- Aug- Sep- Oct- Nov- Dec- Jan- Feb-
              02 02     02 03 03       03 03     03 03 03       03 03     03 03 03 04 04


     Source: Joint Automated Booking System Program Management Office

      Processing Time – We assessed internal processing time for the
Core JABS, rather than overall response times to users in the field. The
Core JABS internal processing time does not include the processing or
transmission time outside of the firewall to the Core JABS, such as time
within a participating agency’s own network. The performance standard set
for the system to forward packages to IAFIS upon receipt at the initial
firewall, and to return an IAFIS response to the submitting agency’s network
is 120 seconds.

     We obtained the Core JABS Processing Time reports for October 2001
through February 2004 to see if Core JABS internal processing times met the
standard. The reports show a summary figure in seconds by month. We
found that the internal processing times were generally less than 120

                                                   26
seconds before September 2003, when the processing times increased to
between 130 and 200 seconds. The time came back down to less than 120
seconds in February 2004, as shown in the following graph.


                                                                                                JABS Processing Times
                                                                                              October 2001 - February 2004

            220
            200
            180
  Seconds




            160
            140
            120
            100
            80
            60
                           Nov-01




                                                                                                                                       Nov-02




                                                                                                                                                                                                                                                   Nov-03
                                             Jan-02




                                                                                          Jun-02
                                                                                                   Jul-02




                                                                                                                                                         Jan-03




                                                                                                                                                                                                      Jun-03
                                                                                                                                                                                                               Jul-03




                                                                                                                                                                                                                                                                     Jan-04
                  Oct-01


                                    Dec-01


                                                      Feb-02
                                                               Mar-02
                                                                        Apr-02
                                                                                 May-02




                                                                                                            Aug-02
                                                                                                                     Sep-02
                                                                                                                              Oct-02


                                                                                                                                                Dec-02


                                                                                                                                                                  Feb-03
                                                                                                                                                                           Mar-03
                                                                                                                                                                                    Apr-03
                                                                                                                                                                                             May-03




                                                                                                                                                                                                                        Aug-03
                                                                                                                                                                                                                                 Sep-03
                                                                                                                                                                                                                                          Oct-03


                                                                                                                                                                                                                                                            Dec-03


                                                                                                                                                                                                                                                                              Feb-04
 Source: Joint Automated Booking System Program Management Office

      The JABS program manager told us the reduction in February was the
result of a system improvement that was implemented to handle the
exploding number of transactions being submitted by the growing number of
users. Staff at the Program Management Office told us the final FY 2004
average processing time was 87 seconds, which was further reduced to
6 seconds for the first two months of FY 2005.

             User Satisfaction

       We interviewed representatives on the JABS Board of Directors from
the BOP, ATF, DEA, DHS, USMS, and FBI to obtain their comments on how
well JABS was working within their organizations. The representatives
agreed that the most significant benefit of using JABS is the quick positive
identification response from IAFIS.

      To determine if the program’s users were satisfied with the booking
capabilities of JABS, we contacted staff from the major Department
components and DHS staff who used the system on a regular basis. We did
not contact BOP personnel because the BOP ABS was not operational for
most of the period under review and staff had limited experience with the
system. Department staff commented positively on the quick turnaround
response time from IAFIS. The DHS staff was likewise positive about the


                                                                                                                                       27
ability to electronically book an offender and receive fast responses from
IAFIS.

       Because of the DHS’s disproportionately high level of participation in
JABS, we judgmentally selected 50 individuals from the universe of users to
survey. We successfully contacted 45 users and asked how JABS and or the
ability to access IAFIS met their expectations. We also asked the same
individuals to provide a numerical rating (1-5, with 1 as poor) on the ability
to electronically access and use the booking station to access IAFIS. An
overwhelming majority (36 of 45, or 80 percent) rated the system either a 4
or a 5. The few who rated it lower stated they felt the electronic access to
IAFIS was a great benefit, but that their booking station was down too often,
which created hardships on their offices. Thirty-two of 45 individuals
(71 percent) contacted stated the number of arrests at their facilities had
increased because of their ability to access IAFIS.

Sharing and Exchanging Booking Information

      As envisioned in the JABS Pilot Project and the JABS Boundary
Document, JABS was intended to: 1) support booking automation through
data sharing, thereby reducing or eliminating redundant booking steps, data,
and data entry; and 2) allow components to share one another’s offender
data to aid in criminal investigations. The success of these efforts would be
measured by a decrease of 50 percent in the time it takes to perform a
subsequent booking, which is a second or third-tier booking by the USMS
and BOP, and in decreased time to identify existing federal booking
information.

      To achieve these goals and objectives, the program would need to
make previously recorded information available to multiple agencies to use
for bookings and inquiries. To reduce or eliminate booking steps and data,
booking information could be input by the arresting agency once, after which
the second or third-tier agencies would access the common booking data
and append or update the record with additional information as needed,
including the disposition of the offender. To aid in criminal investigations,
the automated information would be made accessible to users who are
involved in investigations.

       We found that JABS has not reduced or eliminated redundant booking
steps, data entry, or data between participating agencies. Nor has the cycle
time for subsequent bookings been decreased through data sharing, as
envisioned in the Pilot Project and the Boundary Document. JABS has the
ability to transfer the content of existing booking packages that are


                                      28
contained within JABS to any booking station. The USMS and BOP use their
own case management systems, the PTS and SENTRY, to begin processing
offenders. They re-enter in those systems information that may already
exist in the Core JABS database because they cannot import data from the
ABS into the PTS and SENTRY. The Query Tool was envisioned to export
records to be used by each ABS. Records would be imported from the
nationwide repository into the ABS to create new bookings. We found that
no participating agency was importing data from the central JABS database
to create new records.

      We also found that the JABS program has made it possible for
components to share data for investigative and research purposes through
the JABS Query Tool. Investigators have online access to search the central
JABS database, which makes information available immediately on offenders
included in the database, thereby reducing the time it takes investigators to
locate existing information. However, two important functions that would be
useful to investigators were not in place during our audit. Fingerprint data
was not available for viewing or printing, and the planned electronic photo
line-up capability had not been implemented. The details supporting these
conclusions follow.

     Data Sharing for Bookings

      The Department reported to the Office of Management and Budget, in
documents supporting the FY 2005 budget request, that JABS eliminates the
repetitive booking of offenders. We found, however, that the three booking
evolutions at the arresting component, then the USMS, and then the BOP,
continue to be necessary.

       We observed demonstrations of the automated booking systems at
participating agencies, including the interfaces between the legacy or
missions support systems and the ABS, and interviewed participating agency
officials and booking officers to obtain an understanding of how booking
officers use the workstations. We determined whether information that
existed in JABS could be used by the PTS and SENTRY. We also determined
the number of data elements commonly associated with JABS bookings that
are recorded more than once.

       Users at the ATF, BOP, USMS, and DHS create their booking records
by first recording booking information in their legacy systems: the ATF’s
N-FORCE, the BOP’s SENTRY, the USMS’s PTS, and the DHS’s
ENFORCE/IDENT, which are described in the section of this finding headed



                                     29
Participating Agency Automated Booking Systems. Booking officers then
proceed to the agency’s automated booking system, which contains
JABS-specific functions and screens that have been integrated into the user
interface at these agencies. Data elements needed for JABS that have been
entered already into the legacy systems are automatically populated in the
ABS. The booking officers then record in the ABS screens, fingerprints,
photographs, and any additional data elements that are required for JABS.
These procedures allow the ATF, BOP, USMS, and DHS to enter booking
information once within the agency to create their booking records.
However, for the USMS and BOP, the booking information may already exist
in the central JABS database.

      The DEA and FBI create their booking records by entering booking
information only into their automated booking systems: the FBI’s JABS and
the DEA’s FBS. Booking information recorded in the DEA’s FBS is shared as
part of the Firebird Case Management System. Booking information
recorded in the FBI JABS is not shared with any other FBI applications.

       Both agencies that perform subsequent booking actions, the BOP and
the USMS, re-enter all of the information that has been recorded already by
the ATF, DEA, FBI, or DHS, unless the USMS is the arresting agency, or the
arresting agency has chosen not to book an offender at its own location
before the transfer of custody to the USMS. (Some local facilities may be
inadequately secure for prisoners, or inappropriate for other reasons.) The
interfaces between legacy systems and the ABS were built in one direction
only, from the legacy system to the ABS.

      To measure roughly how much redundancy existed in booking data
entry, we compared specific data elements recorded in the FBI’s JABS, data
elements recorded manually on hard-copy forms required by the USMS in
one location, and data elements entered into the USMS’s PTS. We counted
as one action the manual recording of basic information (such as the
offender’s name), which may be recorded more than once on various
hard-copy forms. This analysis indicated that 59 data elements had been
recorded at least twice by the arresting agency and the USMS by the time
the USMS had completed its booking process, and 49 data elements had
been recorded three times. The 59 elements included basic identifying
information about the offender, including names, address, physical
description (height, weight, hair and eye color, scars, marks, tattoos),
employer information, arrest information, and medical conditions and
medications.




                                     30
       We did not include the BOP in this analysis because of its delay in
implementing JABS, but the BOP will likely add a fourth time each of these
elements is recorded. We also did not include fingerprint and photograph
data in this analysis, because each agency verifies the identity of the
individual through IAFIS.

      Most users have direct access through their ABS to JABS records for
bookings that have been performed only by their own component, or a
subset of those bookings. The FBI and USMS have ABS access to JABS
records that have been created only at each individual workstation. Users
do not have access through their automated booking station to JABS records
that were created by other components.

       Access to JABS records that were created by other components is
possible only through the JABS Query Tool, which is accessed independently
of the ABS. The Query Tool is for inquiry only, and cannot be used to
change, correct, delete, or otherwise manipulate data in the JABS database.
Authorized users can view and print data from the Query Tool, except for
fingerprints. In the future, the Query Tool is supposed to allow users to
download data, import it into their ABS, and use it to create booking
records, which could reduce data entry during second or third-tier bookings
(at the BOP and the USMS). However, because ABS booking records for the
BOP and the USMS are initiated in the components’ legacy systems, there is
little motivation for them to download existing JABS data into the ABS.

        We asked why the interface between the USMS’s ABS and the PTS was
initially built in a way that required USMS booking officers to re-enter the
information, rather than being designed to migrate data from the USMS ABS
into the PTS. The JABS Program Manager explained that the USMS used an
outdated database management system and wanted to update its
architecture before building an interface.

      The Program Management Office staff told us that they are beginning
talks with the USMS about an interface to populate the PTS with data
already in JABS, and the BOP staff told us they may also be interested in
doing this. The Program Management Office staff also told us that the
newest, web-based version of Core JABS (3.0) should support this shift and
simplify access to the Core JABS database from the booking stations.

     Data Sharing for Investigations – The JABS Query Tool

      The Core JABS maintains data submitted by participating agencies in a
repository that can be accessed by authorized users nationwide. Sharing


                                     31
booking data is intended, in part, to allow investigators to locate information
about offenders quickly. The Core JABS Functional Requirements Document,
which defines what the Core JABS is supposed to do, specifies several
functions related to this responsibility, including to:

      •   provide search capability of the JABS database,

      •   display information that is specific to an arrest,

      •   support print capabilities for Core JABS data and fingerprints from
          component printers, and

      •   provide the capability to generate a photographic line-up of mug
          shots from the Core JABS database.

      The JABS program provides authorized users, including investigative
personnel, access to the nationwide database through the JABS Query Tool.
Authorized users in a few agencies that do not perform bookings and do not
need an ABS can access the JABS database through the Query Tool for
investigative and research purposes.

     We observed demonstrations of the Query Tool at the JABS Program
Management Office and participating agencies, interviewed participating
agency officials and booking officers, and reviewed the Query Tool User
Guide to obtain an understanding of how it functions. We also used the
Query Tool to obtain sample records for use in verifying that specified data
elements exist and are being populated, and in a comparison of data values
between the JABS database and the PTS.

       We found that the Query Tool allows users to search the nationwide
JABS database for persons based on identifying information, physical
characteristics, and dates, agencies, and locations of bookings. Authorized
users can view and print records from the JABS database, although they
cannot currently view or print fingerprints. The FBI told us that being able
to view and print fingerprints are functions it wants because many agents
know how to compare fingerprints, and this function would be useful for
investigations. The Program Management Office indicated the function had
been turned off because there had been problems printing to various types
of printers, some of which were not certified by the FBI for printing
fingerprint cards.

     The Query Tool also does not yet generate electronic photo line-ups for
use by investigators from the Core JABS database. We were told by users in


                                        32
arresting agencies that this would be extremely helpful to them. It is
possible that the Query Tool would find more widespread use were this made
available to investigators.

Establishing an Offender Tracking System

      The specific objectives and expected results related to the offender
tracking system have not yet been fully defined by the JABS program. The
Boundary Document indicates JABS will enable users to track offenders
through disposition, but does not include performance measures for this
goal. The Program Management Office told us that it had not focused on
establishing the offender tracking system yet because the priority after
September 11, 2001, had been to deploy the booking stations. The Acting
Program Manager told us that no work has been scheduled yet regarding the
offender tracking system but that work will be completed at some future, but
as yet unspecified, time.

      The Core JABS Functional Requirements Document specifies some
requirements related to tracking, including requirements to store:

      •   the location where the offender is serving the sentence and the
          date of arrival at the facility,

      •   the disposition of each case and the date that the sentence is due
          to expire, and

      •   a history of changes to an offender’s location.

       We believe an effective tracking system for federal offenders requires
a complete and accurate database, meaning that all records should be
included that meet some definition of completeness, so users know what
offender records they can expect to find in the database. Information found
in the records should also be accurate enough to be useful to law
enforcement users who need to identify an offender’s status and location
until release. For critical information to be accurate, it needs to be current.

      We found that the program had begun to establish the tracking system
by creating the database and defining the requirements above, but had not
defined exactly what records will be found in the JABS database.
Additionally, not all of the data elements needed for tracking had been
implemented, such as the disposition of the case, the date a sentence is due
to expire, and a history of changes to an offender’s location. Critical
information may be outdated, because the JABS repository receives updates


                                       33
only from users who choose to send them, and none from the BOP. The
details supporting this conclusion follow.

      Records Included in the Database

      Not all Departmental bookings are currently being recorded in JABS.
The program has not defined what will constitute a complete JABS database,
and has not planned how to achieve any specific objective in terms of what
records are to be included. However, the percentages of bookings being
captured by JABS are increasing for most Department components as
deployment expands, as discussed in Finding 2, but have not reached the
100-percent mark.

      The Department itself has not required that bookings be recorded in
JABS, and not all Department components require this, even where the
system is deployed. The ATF intends that all bookings be entered
eventually, and DEA users have been instructed to book everyone through
the FBS where it is deployed. FBI officials indicated that field offices had not
yet been formally required to record bookings in JABS because not all offices
were equipped to comply. The USMS and BOP record all booking
transactions in their legacy systems, which should result in a JABS
transaction being submitted at deployed locations. Most agencies use JABS
voluntarily.

       During interviews with representatives of the JABS Board of Directors,
we were told that none of the components that make arrests, with the
exception of the FBI, had plans to deploy JABS stations to 100 percent of
their facilities. Even though the JABS budget pays for the purchase and
installation of ABS equipment at Department components, the USMS
representative told us that acquiring funds to pay for installation of the
necessary high-speed communication lines was difficult, as other initiatives
had higher priority. An ATF representative said the budget would run out of
installation funds before it could install stations to all the sites the ATF would
like.

      Prior to implementation of the USMS’s interagency booking capability,
the arrests recorded in IAFIS through JABS were limited to arrests recorded
at locations with an ABS. None of the Department’s law enforcement
components that make arrests had a policy requiring that offenders who
were arrested at sites without JABS stations be entered into the system.
ATF staff told us that, at some point in the future, agents who make an
arrest but do not have access to an ABS may be required to send hard-copy



                                        34
documents to the nearest ATF facility equipped with an ABS so that booking
information can be entered into JABS.

        With implementation of the USMS’s interagency booking transaction, it
should be unnecessary to install an ABS at locations where other
Department components book offenders to ensure that all Department
bookings are recorded in JABS. Instead, an ABS with interagency booking
capability could be deployed to all USMS detention facilities. This would
capture nearly all offenders who have been detained or arrested by
Department law enforcement officers because virtually all offenders who are
charged with federal offenses are brought to and booked at USMS detention
facilities soon after their arrest.

      In addition to the fact that not all current arrests are being captured in
the JABS repository, the program managers initially told us that they had no
plans to populate the nationwide database with historical data on any
population. However, in March 2005 program officials told us that the BOP
has begun entering data on the current prison population. The usefulness of
JABS in tracking the status and disposition of offenders will be limited until
complete prisoner data is entered.

      Data Elements for Tracking

      For those records that are already in the JABS repository, we
determined whether the data elements planned for inclusion in the
repository had been implemented as specified in the JABS Interface Control
Document.18 We included data elements that would be needed to track an
offender through the system. The first question we considered was whether
the data element itself is reflected in Query Tool records.

      We compared the list of data elements from the Interface Control
Document with a sample Query Tool record. We found that not all the data
elements needed for tracking and specified in the Interface Control
Document are reflected in the Query Tool record. These elements include
court offense, court disposition, and disposition date. Also not found on the
Query Tool record were issuance and expiration dates of identifying
documents, alias names on identifying documents, vehicle identification
numbers, and employer information.



      18
            The JABS Interface Control Document describes the JABS interfaces and data
elements.


                                             35
       The second question we considered was whether existing data
elements were being populated. We selected 10 cases from the JABS
database for each of the major components (ATF, BOP, DEA, FBI, USMS, and
DHS) and documented the data elements being populated by each. The
data elements for sentences and sentence expiration dates had not been
populated for any offender by any agency. We found that additional data
elements had not been populated by at least some participating agencies,
including offender residence phone numbers, marital status, ethnic code,
educational level, arms associated with the offender, fingerprint dates, and
location of arrest. Some fields in the Query Tool record do not have
corresponding fields in the ABS applications to enter data. For example, the
FBI ABS does not offer a data element to record offender phone numbers,
ethnicity code, or marital status.

       There are three specific requirements identified in the Core JABS
Functional Requirements Document needed to track offenders for the long
term that have not been fully implemented. The requirement to store the
location where the offender is serving a sentence and the date of arrival at
the facility has been implemented only for the initial commitment to the
BOP. The requirement to store the disposition of each case and the date
that the sentence is due to expire has not been implemented. The
requirement to store a history of changes to an offender’s location has also
not been implemented. If the offender is moved, the location stored in the
JABS database will not be current.

       Accuracy of Information

      Updates and changes made in legacy systems, including the PTS and
SENTRY, that affect data values in JABS are not automatically sent to JABS.
Updates to records in JABS are sent when users choose to send them.19 We
interviewed users and reviewed user manuals to determine if users are
required to submit updates, and determined that there are no such
requirements.

     Updates and changes are especially relevant for the USMS and BOP,
which record updated information regarding court charges, case dispositions,
sentences, and sentence expiration dates in the PTS and SENTRY. Not
updating JABS when changes are recorded in these legacy systems will
cause JABS data to become outdated over time. A recent enhancement to

       19
          Transactions, including updates, are all stored as separate transaction records in
the JABS repository. Original entries are not lost, but are corrected or updated by
supplemental information.


                                             36
the PTS/USMS ABS interface provides for the migration of updated data to
the ABS, when a user pulls up a record that has been changed in the PTS.
But pulling up the record in the ABS and sending the JABS transaction to the
Core JABS depends on the user taking action. No changes entered into the
SENTRY system are being sent to JABS, according to BOP officials.

      We compared information in 30 records between the PTS and JABS,
using the Query Tool. The differences we identified in data elements that
appeared to be migrated initially from the PTS, and therefore likely to be the
consequence of changes in one system and not the other, included the
following:

       •    One PTS record included vehicle information and a state driver’s
            license number that were not in the JABS record.

       •    One PTS record included an alien number that was not in the JABS
            record.

       •    One PTS record included different charges than the JABS record.

       •    One PTS record included four different family members; the JABS
            record showed the same person four times.

     We also found case disposition information in PTS records that was not
shown in the Query Tool record.20

Conclusion

      During our audit, the JABS program partially met its objectives for
Department law enforcement users. The JABS program had: 1) automated
the booking process for Department components, thereby ensuring the rapid
and positive identification of offenders at deployed locations, 2) enabled
users to share information by viewing and printing information created by
other components, and 3) begun establishing the offender tracking system.

       JABS automated the collection of offender data and provided an
automated interface with IAFIS at deployed locations. JABS reduced the
time needed to submit information to IAFIS, and the IAFIS response time
has been cut back from weeks to hours, or even less time, at deployed
locations. JABS had also reduced some redundant steps within agencies.

       20
         Case dispositions are not sent electronically to IAFIS, because it will not accept
them electronically. Instead, agents have to prepare a hard-copy form.


                                              37
Each booking station allowed users to print multiple fingerprint cards after a
person’s prints were successfully scanned once into the ABS, reducing the
number of times a person has to be fingerprinted.

      JABS, however, has not yet resulted in data sharing capabilities that
would allow components to eliminate redundant steps, data entry, or data
between components. Both the USMS and the BOP re-enter data on
offenders that has already been booked in JABS by other participating
agencies because they cannot import data from the ABS into the PTS and
SENTRY.

      The JABS Query Tool facilitates data sharing by allowing users to view
and print JABS data, except for fingerprints. It was supposed to allow users
to create electronic mug shot line-ups and view and print fingerprints;
however, these functions were not available during our audit.

      The offender tracking system has not been fully planned and the Core
JABS data repository does not reflect all data needed for tracking offenders
through disposition. Not all current arrests by the Department are being
recorded through JABS, so the information is incomplete, and no goals have
been established defining who should be included in the database.
Additionally, corrections or updates to data contained in the repository are
not necessarily updated in JABS, even when they are made to component
legacy systems. This will have the effect of JABS data becoming outdated
over time.

Recommendations

      We recommend the Justice Management Division:

1.    Develop, document, and implement a plan to complete or revise the
      project goals to share and exchange information in ways that reduce
      redundant steps between components, and to establish an offender
      tracking system.

2.    Coordinate with the USMS regarding the need to deploy JABS
      capability to all USMS sites taking custody of federal arrestees. If
      100-percent deployment to USMS facilities is determined not to be
      feasible, establish procedures so that USMS sites without JABS
      capability provide information for entry into JABS to other USMS
      offices.




                                      38
3.   Establish a requirement that all federal offenders arrested by
     Department components be booked through JABS.

4.   Work with the FBI to ensure that the ABS fingerprint quality screening
     procedures are enhanced to more closely mirror the FBI’s procedures
     when the non-proprietary quality control standard is released.




                                     39
FINDING 2: Extent of JABS Deployment

      By the end of November 2004, the JABS program had
      provided automated booking capabilities to over 840
      Department locations, or about 77 percent of the sites
      requested by the Department’s law enforcement
      components. About 68 percent of arrests made by the
      DEA, FBI, and USMS during the first three quarters of
      FY 2004 were recorded in JABS as bookings. JABS,
      therefore, is not yet deployed or used for all Department
      arrests, and not all Department submissions to IAFIS are
      transmitted electronically. We also found the program had
      deployed 240 stations to BOP sites almost 2 years before
      the system was implemented successfully because of
      inadequate oversight by the JABS Program Management
      Office. As a result, information from the BOP regarding
      offenders’ incarceration locations was lost to the system’s
      database for that period.

Purpose of Deployment

      The performance measure related to deploying JABS as stated in the
JABS Boundary Document is to “deliver 100-percent connectivity to
components’ automated booking systems.” Program officials told us that
this performance measure is interpreted to mean that JABS is capable of
transmitting and processing bookings with each component’s automated
booking system, even if only one station is deployed in a component, which
has been achieved and is described in Finding 1.

      There are no objectives establishing that all persons, or which specific
persons, detained or arrested by the Department’s law enforcement
components should be booked through JABS. There are also no formal goals
establishing the number or type of sites at which the booking stations should
be deployed. Program officials told us that there is no goal for the program
to make the system available for all Department bookings.

       JABS program officials explained that their role was to respond to the
needs of Department components and other participating agencies by
providing JABS booking stations and services based on the components’
requests. Program officials also told us that the components identify
locations to be equipped with JABS stations and determine who should be
booked through JABS. Booking officers are expected to use it voluntarily in
most components. The specific objectives for deployment, therefore, are


                                      40
established by the components and other participating agencies when they
identify sites to be deployed.

       JABS program officials told us that priorities for the program shifted
after the terrorist attacks of September 11, 2001, when only the DEA’s
automated booking capability had been linked to JABS.21 Resources were
diverted away from reducing duplication and making other improvements to
JABS to implementing the system at additional components and deploying
stations. Other aspects of the JABS mission were postponed until all
components were linked to JABS and the number of stations requested could
be fulfilled.

Deployment Status

       Nationwide and Core JABS

       As of November 2004, the JABS program had provided automated
booking capabilities to all of the Department’s law enforcement components,
and to about 77 percent of the components’ requested locations, or 841
Department locations, out of a total 1,090 sites planned for inclusion in the
system.22 The implementation began with an early version of the system at
the DEA in July 2000, followed by the USMS and FBI in August 2002, and the
ATF, which started a pilot office in December 2003. The last Department
component to begin JABS operations was the BOP in April 2004, but all of its
locations had been equipped with JABS stations in the summer of 2002.
Additional details about implementation are found in Appendix III. All
locations that have been requested by the DEA as of November 2004 have
been linked to JABS. The deployments for the other components based on
their requested sites have not been completed.

       JABS was also implemented at the Immigration and Naturalization
Service (INS) beginning in September 2002, as part of its efforts to make
FBI fingerprint data available to immigration and border officials. The JABS
Program Management Office provided documentation showing that the
system had been deployed to 121 locations by the time the INS became part
of the Department of Homeland Security (DHS) in March 2003.



       21
           Program officials could not produce formal direction to the effect that they were to
shift resources to deployment.
       22
         The JABS Query Tool, which provides authorized users access to information in
the JABS database, does not require a special workstation and is not included in this finding.


                                              41
       In addition to deploying automated booking systems to law
enforcement components, the JABS program had to develop a data
repository and conduit to IAFIS in a way that would allow integration with
the components’ mission critical systems. These central functions of the
Core JABS had to be operational before any component’s automated booking
system would be fully operational. The Core JABS first became operational
in July 2000, with implementation and linking of the early DEA booking
system.

     Deploying to Department Components

      The Program Management Office has completed interfacing the
automated booking systems with JABS for the five Department law
enforcement components, (the ATF, DEA, FBI, USMS, and BOP), and the
DHS. To assess the extent of deployment, we analyzed information and
data provided by the JABS Program Management Office and components,
interviewed component and program management staff members, and
conducted visits to the ATF, BOP, DEA, FBI, USMS, and DHS. We
determined the number of sites and stations requested by Department
components and non-components, and confirmed deployment at each site
using transaction reports.

       We met with the JABS Program Management Office to determine the
number of sites each component had identified to be equipped with JABS
stations. To verify the figures provided by program officials, we
independently interviewed members from each of the Department’s law
enforcement components. We also contacted component staff to discuss the
level of deployment and, if applicable, the reasons for not deploying JABS
stations to all available sites. We found the number of sites requested by
components to be consistent between the Program Management Office and
components.

       The general sequence of events for deploying booking stations is for
the Program Management Office to receive a request for booking stations
from a Department component or other participating agency. Except for the
DHS, the program acquires, physically installs, and tests each booking
station, and connects it to the Core JABS so transactions can be processed.
After booking stations are installed and connected, the program provides
training to the component, if requested. Some participating organizations
conduct their own training.

    The chart below compares the number of sites requested by each
component with the number of sites deployed, as of November 2004.


                                    42
Deployed means not only that the workstations have been installed with all
elements functioning, but also that the connections with the Core JABS have
been implemented and the site has the ability to submit transactions.

          Comparison of the Number of Deployed Sites to the
     Number of Sites Requested by the Department Components
                         November 2004

                              Number of                      Percentage of
                                              Number of
             Participating      Sites                       Deployed Sites to
                                              Deployed
             Component       Requested by                      Requested
                                                Sites
                             Components                     Number of Sites
                 ATF              146           37             25%
                BOP               139          120             86%
                DEA               285          285            100%
                FBI23             235          235            100%
               USMS               285          164             58%
             DOJ Totals         1,090          841             77%
          Source: Joint Automated Booking System Program Management Office

      As reflected in the table above, the degree of deployment completed
varies significantly by component. The DEA, at 100 percent, and the ATF, at
25 percent, reflect their roles as the earliest and most recent installation
starts. Since the number of sites requested changes over time, the statuses
on the table may change frequently. Specific deployment information for
each Department law enforcement component follows.

      ATF – The ATF began using one workstation in January 2004, at
Richmond, Virginia, as part of a pilot test, but then delayed further
implementation of JABS until a new version of the system was developed
and implemented. This new web-based version, JABS Version 3.0,
Three-Tier Architecture Plan, received certification and accreditation to
operate in June 2004. By spring 2004, the ATF had requested that
workstations be installed in an estimated 146 offices, and by
November 2004, the ATF had 37 sites connected to JABS. The JABS
program and the ATF have projected that between 130 and 140 total ATF
sites will be deployed by September 2005, which will satisfy the current
request.

      ATF officials we interviewed said the ATF had 389 offices. The ATF
selected JABS sites from offices that perform at least about 50 bookings per
year. When asked why a 100-percent implementation was not requested,

     23
          In March 2005, the FBI lowered its number of sites requested from 448 to 235.


                                            43
the ATF representative stated the budget did not support that, and it would
be too expensive to install equipment at all locations. It is also the ATF’s
expectation that every person arrested would be booked either at an ATF
site equipped with JABS, or the offender would be taken to the closest USMS
site for booking. If a USMS facility is not feasible, paperwork for the
offender would be sent to the nearest ATF facility for input.

       BOP – Between June and August 2002 the program installed 240 JABS
workstations at 139 facilities.24 The system should have been available for
use soon thereafter, but it failed when placed into production at six
locations. The Program Management Office determined it would be
necessary to scrap, redesign, and rewrite the software that had been
delivered by the contractor. Additional discussion of this problem is in the
section of this finding headed Delayed Deployment at the BOP. The first
transactions from the BOP following implementation of the new system were
performed in April 2004, almost two years later.

       The JABS program and the BOP agree that the component is fully
installed, with no additional sites planned. As of July 31, 2004, transactions
had been submitted to the Core JABS from 87 of 139 sites, and by
November 2004 the BOP had 120 of the sites reporting transaction activity.
When the BOP begins operations in the remaining 19 sites, it will be fully
deployed according to current projections.

       DEA – The DEA was the first Department component to automate the
booking process and connect with the Core JABS in July 2000. According to
a DEA official, the early implementation proceeded slowly until after the
terrorist attacks on September 11, 2001, when emphasis was placed on
rapid deployment. By the end of FY 2003, 202 of the DEA’s 285 requested
sites had been deployed, and by November 2004 all 285 were deployed.
The JABS program and the DEA consider domestic deployment for the DEA
to be complete, although there are about 313 total DEA sites. (See the table
on page 43.)

       At the end of July 2004, the DEA’s ABS had been deployed in 9 foreign
locations, including Brazil, Greece, Mexico, and Pakistan. Officials of the
JABS program and the DEA told us the DEA is interested in installing about


       24
          The JABS is “installed” when the hardware is delivered to a site, but is “deployed”
when the delivered hardware has been made operational and linked to the Core JABS. This
sentence refers to 139 facilities where the JABS has been installed, but which were not
deployed. (The table on the prior page shows the 120 BOP sites actually deployed as of
November 2004.)


                                             44
75 additional stations internationally, but no information has yet been made
available to confirm their request or status.

      FBI – An FBI official told us the agency had initially decided to make
JABS stations available widely throughout the agency, so originally the FBI
requested JABS stations for all of its 448 field office and resident agency
sites. By the end of November 2004, the program had deployed stations to
235 FBI sites. An official of the FBI’s Criminal Justice Information Services
(CJIS) Division said the FBI intended for all of its offices to use the
workstations for prisoners, confidential informants, or both.25 Since the FBI
had not deployed JABS to all locations, it had not yet imposed requirements
about booking prisoners or making inquiries about confidential informants
through JABS.

      The FBI official told us the agency was considering a policy requiring
FBI agents to use the booking stations even if they do not bring prisoners to
an FBI location. Agents will enter data, or download it from the Query Tool,
and scan in hard-copy fingerprint cards printed by the USMS to submit the
booking to IAFIS.

      As of November 2004, the FBI was reassessing its original request for
448 workstations and the need for JABS equipment at specific locations,
because of mobile JABS booking stations and the new interagency booking
function now available at USMS locations. Mobile workstations will allow the
agency to deploy stations where they will be the most useful for limited
periods. The USMS’s new interagency booking function may make it
unnecessary for every FBI office to have JABS equipment because a booking
can be recorded and sent to IAFIS as an FBI booking without having to be
sent directly from an FBI office. In March 2005 the Acting Program Manager
told us that the FBI had determined that 235 sites would meet its needs.

       The FBI had recently received a number of mobile JABS workstations.
As of November 2004, the FBI had placed 18 mobile stations at 4 sites:
1) Clarksburg, West Virginia; 2) Quantico, Virginia; 3) New York City; and
4) Rolling Meadows, Illinois. These can be used at some locations in lieu of
regular workstations, allowing the FBI to deploy stations where they will be
the most useful for limited periods. An FBI official said they might decide to
shift some resources to international sites. By the end of July 2004 the FBI
       25
            The CJIS Division, established in February 1992 to serve as the focal point and
central repository for criminal justice information services in the FBI, is the largest Division
within the FBI. The CJIS Division has responsibilities for, among other things, fingerprint
identification services through IAFIS, the National Crime Information Center, Uniform Crime
Reporting, and the National Incident-Based Reporting System.


                                               45
had booking stations deployed in 4 foreign locations, including Afghanistan,
Iraq, and Turkey.

       USMS – JABS became available to the USMS beginning in
August 2002. The USMS had requested that JABS stations be installed at
285 facilities. By the end of November 2004, the JABS program had
deployed workstations to 164 of the sites. The USMS representative to the
JABS Board of Directors confirmed the program’s plans that deployment to
all of the requested 285 sites will be completed by the end of FY 2005. The
285 sites, however, do not represent all USMS facilities at which bookings
occur. The USMS representative said the USMS envisions that every office
with a staff of 5 or more people would eventually receive a JABS station.

        Deployment plans for the USMS depend on upgrades to the
component’s network and communications capabilities. The USMS network
is old and high-speed communication lines (T-1 lines) needed to fully deploy
the system have not been installed at many locations. The USMS
representative told us that it has had problems obtaining funding to upgrade
its network and that only about half of approximately 336 total USMS offices
had been upgraded with high-speed lines as of summer 2004. Additionally,
the USMS representative told us that smaller sites will probably not get
upgraded lines at any time in the near future.

      In addition to the impact on USMS operations, this resource constraint
has prevented the JABS program from maximizing the USMS’s role as the
central processor of federal offenders. Since interagency booking
functionality was implemented through the USMS in June 2004, any federal
law enforcement agency can submit its bookings through the USMS
automated booking system to JABS and IAFIS, and receive the IAFIS
response electronically. If JABS were deployed at every USMS location to
which offenders are brought by arresting agencies, JABS and IAFIS would be
available electronically to any federal law enforcement agency with access to
a USMS site. The USMS and the JABS program have informally discussed
the possibility of using JABS funding to help implement the communications
upgrades, but no decision had been reached at the time of our audit.

     Other Participating Agencies

      The JABS program will provide services to any federal agency that is
required to submit fingerprints to the FBI. The only organization outside the
Department that uses JABS for a significant number of bookings is the DHS.
The National Institutes of Health Police and two offices of the U.S. Army
Police have also connected to JABS to submit bookings. Several additional


                                     46
agencies have expressed interest, and JABS program officials are in
discussions with the agencies identified below. A handful of organizations
are connected to the JABS Query Tool for purposes of accessing information
only, but not to perform bookings.

      DHS – The JABS program deployed 198 JABS stations to 121 INS sites
while the INS was still part of the Department. When the INS became part
of the DHS in March 2003, responsibility for deployment transferred to the
DHS as part of the IDENT/IAFIS project, which is now part of the US-VISIT
Program Office at the DHS. The DHS officials we interviewed said that the
only service the JABS program provides DHS is the secure conduit to IAFIS
from their booking stations. DHS officials told us their goal is to deploy its
automated booking stations to all Ports of Entry and Border Patrol stations
as part of its US-VISIT initiative. The DHS anticipates that all bookings will
be processed through JABS, which it calls IDENT/IAFIS.

      Others – As of March 2004, JABS workstations were installed and
linked to the Core JABS at two locations of the U.S. Army Military Police and
at the National Institutes of Health Police for purposes of booking offenders.
At the time of our audit, plans were in place to link the U.S. Air Force Office
of Special Investigations, and discussion had begun with the Secret Service
to implement JABS. As of mid-December 2004, neither organization had
connected to the system. An additional link with the U.S. Courts is
anticipated in December 2005. Other federal agencies have read-only
authorization to use the nationwide JABS database, which they access
through secure accounts using a web browser.

      Discussions between the JABS program and other organizations
outside the Department have occurred, with agreements to deploy stations
in some cases. The organizations listed below have expressed an interest in
obtaining JABS stations.

   •   Transportation Security Administration
   •   Coast Guard
   •   Federal Protective Service
   •   Defense Security Administration

       Costs

       We analyzed information about funding, budgets, expenditures, and
obligations for implementation of the nationwide JABS from FY 1999 through
the first quarter of FY 2004. The figures do not include funding for the JABS
Pilot Project that was terminated in July 1999.


                                       47
       The JABS program received $82.68 million in funding for
implementation and operations through FY 2004 from the Asset Forfeiture
Fund (AFF), congressional appropriations, and the Department’s Working
Capital Fund (WC). The table below reflects the funding by fiscal year. The
program allocation in the current version of the FY 2005 budget is $20.185
million.
                               JABS Funding
                        FY 1999 Through FY 2004
                            (Millions of Dollars)

                                                                                    Total
   Fiscal Year       1999     2000      2001       2002      2003       2004      through
                                                                                   2004
 AFF26             $10.00    $4.20                                                   $14.20
 Appropriations              $1.80   $15.88    $1.00  $15.87     $18.97              $53.52
 WC                                           $14.96                                 $14.96
 Totals            $10.00    $6.00   $15.88   $15.96  $15.87     $18.97             $82.68
Source: Joint Automated Booking System Program Management Office

      The JABS program has reimbursable agreements with the DHS and
U.S. Air Force for workstation deployments and operational services
provided by the Core JABS. The funding figures above do not include the
amounts that are paid to the program from these agreements.

      The JABS program has obligated, from FY 1999 through the first
quarter of FY 2004, $72,879,776 for nationwide JABS implementation, as
indicated in the following table. The $72.88 million total amount includes
costs that will be reimbursed to the program through the reimbursable
agreements with the DHS and U.S. Air Force.




       26
           The Comprehensive Crime Control Act of 1984 established the Justice
Department's Assets Forfeiture Fund (AFF), into which forfeited cash and the proceeds of
the sale of forfeited properties are deposited. The AFF funds may be used for several
purposes, including overtime salaries, travel, fuel, training, equipment, and similar costs
incurred by state or local law enforcement officers in a joint law enforcement operation with
a federal law enforcement agency participating in the fund.


                                             48
                                 JABS Obligations
                      FY 1999 Through First Quarter of FY 2004
                                    (Dollars)

 Program Area         FY 1999      FY 2000      FY 2001      FY 2002       FY 2003      FY 2004        TOTALS
Program
Management             $483,394   $1,791,970   $1,877,472    $3,119,087    $3,450,939   $3,277,063    $13,999,925
Office Operations
Core JABS            $3,701,499   $3,456,369   $5,003,646    $6,349,118    $5,650,392    $558,634     $24,719,658
Amounts for
Participating        $1,910,163     $657,323   $2,766,192   $18,890,533    $8,488,540   $1,447,442    $34,160,193
Agency Support
Total                $6,095,056   $5,905,662   $9,647,310   $28,358,738   $17,589,871   $5,283,139   $72,879,776
Source: Joint Automated Booking System Program Management Office

      For the tables above and below, the “Program Management Office
Operations” category includes, but is not limited to: 1) office supplies,
2) salaries and benefits, 3) travel, and, 4) office equipment. The “Core
JABS” category includes design and engineering effort, security, and
operations and maintenance. The “Amounts for Component Support”
category represents component booking station equipment and work
coordinated by the Program Management Office on the components’
automated booking systems.

      Actual expenditures are shown in the table below. The JABS Program
Management Office had expended, for fiscal years 1999 through the first
quarter of fiscal year 2004, $57,459,127 for nationwide JABS
implementation. The $57.46 million amount includes the reimbursable
agreements with the DHS and U.S. Air Force.

                                JABS Expenditures
                      FY 1999 Through First Quarter of FY 2004
                                    (Dollars)

   Program
     Area            1999          2000          2001          2002          2003         2004         Totals
Program
Management
                     $487,683     $1,271,104   $1,746,779    $3,103,643    $2,989,279    $649,673    $10,248,161
Office
Operations
Core JABS           $3,701,897    $3,410,446   $4,998,861    $6,250,214      $846,175    $114,002    $19,321,595
Amounts for
Participating
                    $1,901,931     $620,188    $2,757,210   $18,279,954    $4,116,780    $213,308    $27,889,371
Agency
Support
Total               $6,091,511    $5,301,738   $9,502,850   $27,633,811    $7,952,234    $976,983    $57,459,127
Source: Joint Automated Booking System Program Management Office

     The original plan for JABS called for each component to build its own
automated booking system. The Program Management Office became


                                                   49
responsible for the total JABS budget early in the project, and has
coordinated the development and deployment of each component’s
automated booking system.

       The participating agencies’ support amounts are broken down further
by agency. Each participating agency’s support obligation and expenditure
amounts for the period FY 1999 through the first quarter of FY 2004 are
reflected in the next table.

   Participating Agencies’ Assistance Obligations and Expenditures
               FY 1999 Through First Quarter of FY 2004
                               (Dollars)

                      Participating
                         Agency       Obligations    Expenditures
                     BOP                $6,957,639       $6,580,317
                     DEA                $9,020,514       $8,206,283
                     FBI                $6,256,910       $3,876,478
                     USMS               $8,259,213       $6,018,778
                     DHS                $3,360,999       $2,719,034
                     U.S. Air Force        $58,572           $1,002
                     Total             $33,913,847      $27,401,892
                    Source: Joint Automated Booking System Program
                    Management Office

       Transactions

      We reviewed transaction reports generated from the JABS database to
determine the types and volumes of transactions that are being processed
by the Core JABS.27 The following table summarizes transactions showing
bookings, quick searches, and all transactions. The number of JABS
transactions increased from 6,015 in FY 2002 to 711,141 through July 2004.
The number of transactions is projected to increase to at least 3 million in FY
2005, and 6 million in FY 2006, as new users are brought into the system.




       27
          A transaction is a submission of a record, attached to an e-mail, through JABS to
either book an offender, inquire about a person, or update an existing record.


                                             50
                           Total JABS Transactions
                    October 1, 2001 Through July 31, 2004

      Transaction           Fiscal Year 2002        Fiscal Year 2003   Fiscal Year 2004
       Bookings                  4,981                   89,489           128,465
  Quick Search/TPRS                  12                194,432            510,765
    All Transactions         6,015             327,137                    711,141
Source: Joint Automated Booking System Program Management Office

      The majority of transactions since FY 2002 have been the quick
search/TPRS requests submitted by the DHS. Bookings through three
quarters of FY 2004 accounted for about 18 percent of all transactions, with
the DHS quick searches making up about 72 percent. Other transactions,
such as inquiries and updates accounted for the remaining 10 percent of
transactions.

      Percentage of Component Arrests Booked in JABS

      The JABS Program Management Office does not determine or track the
percentages of Department arrests being captured as bookings through
JABS. To determine what percentage of all arrests were being recorded as
bookings in JABS, we requested arrest data from the DEA, FBI, USMS and
DHS. We did not request arrest data from the ATF, as only the pilot office
operated a JABS station during our audit period. We also did not request
commitment data from the BOP because the BOP had just begun using the
system in the spring of 2004. As of December 2004, the DHS had not
provided the arrest data we requested. We compared the arrests reported
by the DEA, FBI, and USMS to each component’s bookings for FYs 2002 and
2003, and through the 3rd quarter of FY 2004. The bookings performed
through JABS as a percentage of each component’s reported arrests are
shown in the table below. For example, for FY 2003, about 24 percent of the
FBI’s arrests were booked through JABS.

            Percentage of Component Arrests Booked in JABS
                    FY 2002 Through July 31, 2004

                       Fiscal Year     DEA         FBI       USMS
                         2002         13%         <1%         3%
                         2003         30%         24%        96%
                         2004         44%         47%        90%
                    Source: Joint Automated Booking System Program
                    Management Office




                                               51
      It is clear that many arrests made by the Department were not being
recorded in JABS as bookings through July 2004, and that the wide
deployment has not ensured that all Department arrests are being booked
through JABS. We found that 40,748 of 60,129 arrests (68 percent) by the
DEA, FBI, and USMS were recorded in JABS as bookings for the first three
quarters of FY 2004. The significance of an arrest being submitted to JABS
as a booking is that types of transactions other than bookings are not stored
in IAFIS. The USMS would have submitted criminal history transactions to
JABS for many of the arrests the components had not recorded in JABS.
Criminal history transactions, however, are not stored in IAFIS, so do not
result in the quick addition of offender records in IAFIS. Until
implementation of the USMS’s interagency booking capability, the USMS was
not able to submit a booking on behalf of other components to be stored in
IAFIS.

      With the possible exception of the USMS, however, we found that the
percentage of all arrests being reported as bookings through JABS is
increasing. The substantial increase in the percentage of bookings being
completed through JABS is a direct result of the continued deployment since
FY 2002, when only 103 sites were reporting transactions nationwide. The
USMS figures indicate a decrease in FY 2004 from the prior year, but USMS
representatives told us that they believe this is the result of reporting
changes that were implemented in FY 2004, and that had the effect of
reducing the reported number of bookings based on USMS arrests.28

       System Users

      As of September 2004, there were 24,988 potential users, for all
organizations, with active passwords. The total number of potential users,
organization or component, and their percentage of the whole, is shown in
the following graph.29




       28
          One change is that bookings performed on behalf of other agencies are now
appropriately identified as arrests belonging to the other agencies since implementation of
the interagency booking capability in the USMS ABS. The USMS also told us that
defendants who surrender in response to a summons are no longer reported as USMS
arrests.
       29
         A “potential user” is an individual who has been furnished a password by the JABS
Program Management Office to access JABS.


                                             52
                                    JABS Users by
                                  Participating Agency
        16,000
                 13,888
        14,000
        12,000

        10,000

         8,000
         6,000            5,315

         4,000                      3,091
                                             1,840
         2,000                                       647   187     20
            0
                 DHS      DEA        FBI     USMS    BOP   Other   ATF

       Source: Joint Automated Booking System Program Management Office

       Among the major law enforcement users of JABS, the DHS has the
largest number and percentage of authorized users (56 percent). Not all
authorized users have used the system because they may have no need to
book anyone for long periods. DHS immigration inspectors and border patrol
officers have to be authorized to access the system as they are subject to
being assigned to work in secondary inspections, where JABS is used. We
expect the number of ATF users to increase dramatically as deployment
continues. Most of the 187 “Other” users shown in the chart above have
access to the JABS database through the Query Tool for investigation and
research purposes, not for booking offenders.

Delayed Deployment at the BOP

       We identified a nearly two-year delay in implementing the system at
the BOP after all the requested equipment had been installed. All of the 240
workstations that were requested by the BOP were installed between June
and August 2002. However, the BOP only began submitting JABS
transactions successfully in the spring of 2004, nearly two years after
installation. In addition to losing the use of those workstations and the
additional records that would have been created in the JABS database, BOP
ABS software had to be redesigned, and the JABS program paid the
contractor for two design and development efforts.



                                            53
      JABS program and BOP officials told us that the software resulting
from the initial Design and Development (D&D) work done on behalf of the
BOP had major problems that were not discovered until after the program
had installed all 240 workstations at the BOP’s requested sites. The Acting
Program Manager told us that the problem occurred for two reasons: 1) the
Program Management Office did not perform oversight to a sufficiently
detailed level to identify this problem during the software development
stage, and 2) the contractor did not follow the processes described in its
quality assurance plan.

       Program officials told us that a contractor assured them the design and
development effort was proceeding appropriately. A program official also
said the initial system had passed system acceptance testing, and 6 sites
had been connected when the failure occurred. However, the system failed
when more than a few users tried to enter data. The BOP and JABS officials
told us they tried to correct the problems, but decided it would be more cost
effective to scrap the existing code and start from scratch due to its
inappropriate design.

      The JABS Program Management Office was not able to provide
documentation to confirm that it had effectively monitored the D&D efforts
being performed by the vendor. The Acting Program Manager told us that
the Program Management Office participated in design reviews but relied on
the contractor to review the programming code in accordance with the
contractor’s quality assurance plan.

      BOP Early Installation Costs

     We calculated the cost of the early installation of the BOP’s JABS
equipment using financial documents provided by the JABS Program
Management Office.

     The cost of the equipment was about $4.2 million. We calculated this
by adding the following amounts shown in the JABS FY 2002 Spending Plan:

      •   $1,472,121 from the Working Capital Fund spent on the BOP
          supplies and equipment for the BOP, and

      •   $2,733,180 from appropriated funds spent on BOP supplies and
          equipment in the deployment of JABS stations.




                                      54
       In addition to the purchase cost of equipment, records show the
Program Management Office spent about $176,000 for BOP travel and
training for the deployment of the stations.

     The initial D&D effort to integrate the BOP with JABS was contracted
out. The contractor provided a senior information systems engineer who
worked on the initial project a cumulative 859 hours, which concluded in
September 2002 at a total staff cost of $88,082.

      The second BOP D&D effort was also contracted out. The contractor
concluded work on or about January 31, 2003. A second contracted senior
information systems engineer, with the assistance of four contracted
software engineers, worked on the second integration effort for a cumulative
1,432 hours at a total additional staff cost of $131,457.

       We determined the total costs associated with the early deployment
and installation of JABS to the BOP were $5,042,933, as of February 2004.
We also found that $88,082 was wasted by the contractor in the initial D&D
effort because the initial work had to be corrected. We did not question this
amount because it represented an immaterial portion of the total cost of the
project.

     BOP Inventory Confirmation

      As discussed above, about $4.2 million was spent on equipment and
supplies to deploy the 240 stations. As substantial assets were expended for
the acquisition and installation of the equipment that sat unused for a long
time, we asked the BOP to account for the installed equipment.

       BOP booking stations had been installed at 139 sites during 2002. We
reviewed a transaction report for May 2004 and determined that the BOP
had submitted at least one transaction from 23 of the 139 sites at which the
stations were installed. We contacted 115 sites that had not submitted
transactions to confirm and account for JABS equipment, and to obtain
serial/inventory numbers for their equipment. We compared these with
corresponding identification numbers from a Shipping Status Report for the
BOP equipment that was provided by the Program Management Office.

     We received responses from all 115 BOP sites. The results of
responses from the property confirmation letters were that:




                                      55
     •   Ninety-four of the 115 (82 percent) confirmation responses
         provided serial numbers of equipment that matched the shipping
         serial numbers provided by the JABS program.

     •   Twenty-one respondents provided inventory control numbers for
         27 pieces of equipment that did not match the shipping serial
         numbers provided by the Program Management Office. Twelve of
         the 21 respondents reported that the equipment had been
         replaced: 7 monitors, 2 live-scan devices, 2 computers and 1 digital
         camera. The missing or unaccounted equipment consisted of a
         monitor, a flatbed scanner and a computer. We also ascertained
         that a flatbed scanner and a digital camera had been damaged and
         had either been turned in or was otherwise disposed. We
         calculated the value of the missing/disposed/turned-in equipment
         at $2,019.

     Our analysis revealed only minor discrepancies, with unaccounted
equipment valued at $2,019. We determined these discrepancies are
immaterial and that the BOP has adequately accounted for installed
equipment.

Assessment of Sites with Low Transactions

      While conducting field work to confirm that the workstations being
reported as deployed had, in fact, submitted transactions, we matched
reported transactions for each site to the listing of deployed locations
provided by the program. We noted that some sites had submitted either no
transactions, or very few transactions, since they were deployed. We
decided to determine whether each site actually had a JABS station, or if the
limited activity was the result of problems the sites were having with JABS.

     We identified 32 sites showing no activity: 10 DEA, 13 FBI, 4 USMS,
4 DHS, and 1 U.S. Parole Office.

     The 10 DEA facilities that had no transaction activity were located at:

         •   DEA EPIC (El Paso, Texas)
         •   Arlington, Virginia
         •   West Palm Beach, Florida
         •   Key Largo, Florida
         •   Pensacola, Florida
         •   Fort Pierce/Port St. Lucie, Florida
         •   East Boston, Massachusetts


                                        56
          •   New Bedford, Massachusetts
          •   Romulus, Michigan
          •   White Plains, New York

      In June and July 2004, we contacted staff at each of the affected sites
and inquired about the lack of activity. The results were that:

      •   Six of the sites were incorrectly reported as having a station, when
          they did not. We contacted the Acting Manager of the JABS
          program to confirm this, and he concurred the six sites did not have
          stations. The Director also said that the procedure for reporting
          that a station was deployed was changed about July 2003 to
          eliminate the problem of incorrectly reporting a site that was
          installed when it was not.

      •   One station had become operational only two weeks before our
          inquiry, and although it was operational there had not yet been an
          opportunity to use it.

      •   The booking stations would not be used at two sites: Pensacola,
          Florida, and Romulus, Michigan. The Pensacola DEA respondent
          said he was reluctant to bring arrestees to his office for booking as
          the office is co-located with a commercial bank. His arrestees were
          taken to and booked through the local police department.

      •   We could not obtain a response concerning the disposition of the
          booking station located at the East Boston site.

      We also identified 13 FBI sites that did not record any activity. We
used the same method to determine why a deployed station was not being
used. The FBI respondents provided the following reasons for no activity.

      •   Staff at six sites reported that a JABS station was installed, but they
          had difficulty in getting the system on-line. The six sites identified
          below expected to submit transaction through their stations when
          the problems were resolved.




                                       57
               Birmingham, Alabama
               Syracuse, New York
               Columbia, South Carolina
               Memphis, Tennessee
               Charlottesville, Virginia
               Huntington, West Virginia

     •   Lack of training had, so far, prohibited the use of the JABS station
         at the Bay City, Michigan, site.

     •   The FBI representative at the Mon Valley, Pennsylvania site said,
         without elaboration, that the officers take their prisoners to the
         local USMS facility for booking.

     •   Respondents at five sites said they do not anticipate using the JABS
         stations to book offenders because: 1) the sites are very small;
         2) the number of arrests processed through an office is minimal,
         (described as 5-6 each year); and 3) the site has connectivity
         problems with the Core JABS and like the other 4 stations, take
         their offenders to a USMS or local police facility for booking. These
         were:

               St. Joseph, Michigan
               Akron, Ohio
               Winchester, Virginia
               Martinsburg, West Virginia
               Wheeling, West Virginia

       To determine reasons some sites had submitted only a few
transactions, we categorized sites as having low transaction levels by
arbitrarily selecting a threshold of 15 transactions, based on cumulative
activity as of July 2004. We considered any site with 15 or fewer
transactions to have low levels of activity. We did not include the BOP in
this review, as the agency was essentially not operational on JABS at the
time of our review. We identified 73 sites with low transaction activity. Of
the 73, 51 sites belonged to the FBI and 12 were DEA facilities. The
remaining 10 sites were distributed between the DHS, the U.S. Army site at
the Picatinny Arsenal, and one USMS facility in Victoria, Texas.

      Of the questionnaires sent to DEA locations, 7 responded. Four sites
attributed their low usage to the fact that they were small offices and
consequently there were a minimal number of arrests. Staff from 1 site
reported the USMS books their arrestees, thus reducing their transaction


                                      58
activity numbers. Four sites reported that inadequate training and
considerable hardware problems had prevented them from using the station
effectively.

       As with the DEA, we mailed questionnaires requesting an explanation
of the low level of activity to the 51 FBI offices. We received 32 responses.
Staff from 20 sites attributed their low level usage to the low number of
arrests they made due to the types of investigations they conducted, or to
the fact that the office was small and had a limited number of trained
agents. Nine respondents reported they take their arrestees to the USMS
for booking. Five reported the lack of training as the primary reason for low
usage in their office. Three reported equipment problems, and one reported
they use the equipment only for photos and taking fingerprints for
comparison. The sum of the respondents exceeds the 32 responses, but this
is because several respondents provided more than one explanation in their
answer.

       All of this suggests that some of the workstations that have been
deployed will not be used that much or at all, and that the program should
focus on providing access to JABS at the USMS detention sites, where nearly
all offenders arrested by federal law enforcement agencies are brought to be
processed.

Future Expansion

      JABS Program Plans

       The JABS program plans for expansion through FY 2006 include
deploying additional workstations to the ATF, DEA, and USMS, and linking
with the U.S. Air Force Office of Special Investigations, the U.S. Courts, and
the Secret Service. The total deployments projected for the ATF and FBI
through FY 2006 do not fulfill the total stations requested at this time,
although the FBI is reconsidering its request for a booking station at each
field location based on recent developments in the interagency booking
function at the USMS and mobile booking stations. The program also plans
to convert the USMS automated booking system to the web-based version of
JABS by September 2005. The total projected costs for FY 2005 were
$20.3 million to cover all planned activity.

     Neither the components nor the JABS program could provide
documentation to support the number of sites that would represent an
optimal number of booking stations that would ensure that all or most
bookings performed by the Department are submitted electronically to IAFIS


                                      59
through JABS. We attempted to determine an approximate universe of
possible sites in the Department’s law enforcement organizations that could
use a JABS station, assuming there were no funding, logistical, or
operational constraints.

       During interviews, we asked component personnel for the number of
offices in which it would be possible to use JABS. The second column of the
table below identifies the number of sites that could be recipients of a JABS
station. Our intent was to identify an approximate universe of sites should
the Department be 100-percent equipped with JABS.

   Comparison of the Universe of Possible Component Sites to the
    Number of Sites Requested by the Department Components

                                                                 Percentage of Dept.
                                            Number of Sites
  Department       Number of Possible                             Possible Sites for
                                             Requested by
  Component       Sites for Deployment                            Which Sites Have
                                             Components
                                                                   Been Requested
       ATF                 389                      146                    38%
       BOP                 145                      139                    96%
       DEA                 313                      285                    91%
       FBI                 448                      235                    52%
      USMS                 336                      285                    85%
   DOJ Totals            1,631                    1,090                    67%
Sources: Component Audit Liaisons and the Joint Automated Booking System
Program Management Office

       With the exception of the ATF and FBI, the number of sites that have
been requested by the components is within range of meeting what would be
full deployment of JABS for the Department, even if defined broadly to
include JABS stations in virtually all offices where offenders are booked.
Changes in JABS itself, however, may be decreasing the need or motivation
for each location of each component to have its own JABS booking station.

      Interagency Bookings at the USMS

      Since interagency booking functionality was implemented through the
USMS automated booking system in June 2004, any federal law enforcement
agency can have arrests submitted through JABS to IAFIS, with the IAFIS
response sent back to the arresting agency electronically. Before this
function was implemented, a component had to submit an electronic booking
from a workstation belonging to the component to be identified by IAFIS as
the arresting agency and maintain responsibility for reporting case
disposition to the FBI. This is because the USMS’s automated booking


                                         60
system was previously not capable of assigning the arrest to another agency
if the USMS submitted the first booking transaction in JABS.

       We found that the interagency function was installed and operating at
about 122 USMS facilities. The USMS can now submit booking packages
that identify an agency other than itself as the arresting agency. The
arresting agency receives credit for the arrest and retains responsibility for
the disposition of the case. This feature allows other organizations to
participate in JABS without having to build their own booking systems. The
Program Management Office provided documentation indicating that, as of
August 2004, the USMS had submitted 5,447 bookings on behalf of 34
different organizations. In addition to submitting bookings on behalf of the
four Department law enforcement organizations that have JABS booking
systems, the USMS also submitted bookings on behalf of the Department of
Defense, Food and Drug Administration, Internal Revenue Service, National
Park Service, Veterans Administration, and 25 other agencies.

      If JABS and interagency booking capabilities were deployed to every
USMS location to which offenders are brought by arresting agencies, JABS
and IAFIS would be available electronically to any federal law enforcement
agency with access to a USMS site, without needing to have their own JABS
booking stations. This could ensure that virtually all offenders arrested by
federal law enforcement agencies could be booked electronically through
JABS and IAFIS. Deployment to all USMS sites, however, is not currently
planned, and this potential has not yet been realized. The immediate
problem, according to both JABS program and USMS officials, is funding for
communications network upgrades. The USMS and the JABS Program
Management Office have informally discussed the possibility of using JABS
funding to help implement the communications upgrades, but no decision
had been reached at the time of this review.

Conclusion

      By the end of November 2004, the JABS program had successfully
deployed automated booking capabilities to about 840 sites, or about
77 percent of the Department’s law enforcement components’ locations
planned for inclusion in the system. The system, however, is not yet
deployed or used in a way that ensures that all Department arrests are
recorded in JABS or are submitted electronically to IAFIS.

      The central point of contact for offenders in the federal booking
process is the USMS. The JABS program has begun to take advantage of
this by the recent implementation of interagency booking functionality. This


                                      61
capability can be used to maximize the number of federal bookings that can
be electronically linked to the FBI’s IAFIS and stored in the nationwide JABS
repository for authorized users to view.

      We also found that 240 JABS stations were installed at BOP facilities
nearly two years before the system was usable because the contractor did
not adequately review the software code and the Program Management
Office’s oversight was not sufficient to identify that the contractor was not
following its quality assurance plan. The result of this problem was that the
Department lost the use of the assets for almost 2 years and additional
funds had to be spent redeveloping the software.

Recommendations

      We recommend that the Justice Management Division:

5.    Develop a plan for future expansion of JABS. The plan should take
      into account interagency booking capabilities at the USMS, provide a
      clear definition of the universe of offenders to be included in JABS, and
      focus resources to optimize future expansion.

6.    Establish and implement oversight procedures to ensure that
      contractors comply with their quality assurance plans.




                                      62
                  STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the Department’s deployment
of JABS, we considered internal controls for the purpose of determining our
auditing procedures. This evaluation was not made for the purpose of
providing assurance on the Program Management Office’s internal controls
as a whole. We noted, however, a matter that we consider to be a
reportable condition under the Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal controls
that, in our judgment, could adversely affect the Program Management
Office’s ability to effectively manage the implementation of JABS.
Reportable conditions we identified pertaining to accomplishing goals and
deploying JABS are contained in Findings 1 and 2 of this report.

       Because we are not expressing an opinion of the Program Management
Office’s internal controls as a whole, this statement is intended solely for the
information and use of the Program Management Office in managing the
implementation of JABS. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                       63
      STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

     We audited the Department’s implementation of the Joint Automated
Booking System. The audit period covered from May 1999 to November
2004. The audit was conducted in accordance with the generally accepted
Government Auditing Standards.

      Compliance with laws and regulations is the responsibility of the
Program Management Office’s management. In connection with the audit
and as required by the Standards, we reviewed procedures, activities, and
records to obtain reasonable assurance about the Program Management
Office’s compliance with laws, regulations, and the Office of Management
and Budget (OMB) Circulars that, if not complied with, we believe could have
a material effect on program operations.

      Our audit included examining, on a test basis, evidence about laws,
regulations, and OMB Circulars. The specific laws and regulations for which
we conducted tests are contained in the relevant portions of OMB Circular A-
11 and OMB Circular A-123.

       We reviewed the following JABS-related procedural/agency manuals:

  •    JABS Query Tool User's Guide

  •    ATF User's Manual

  •    FBI User's Manual

  •    USMS User's Manual

  •    DHS’s IDENT/IAFIS User's Manual

  •    JABS Boundary Document, May 12, 1999

  •    Nationwide JABS Concept of Operations, November 17, 1999

  •    Nationwide JABS System Security Plan, September 6, 2002

  •    Nationwide JABS Security Policy, December 16, 2002

  •    Nationwide JABS Interface Control Document, August 12, 2003

  •    JABS Version 2.3 Requirements Document, January 12, 2004


                                      64
     Except for those issues discussed in the Findings and
Recommendations section in this report, nothing came to our attention that
causes us to believe that the JABS Program Management Office was not in
compliance with the referenced laws and regulations cited above.




                                    65
                                                              APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objectives of our audit were to assess the extent to which the
program was meeting its stated goals and the status of implementation of
JABS. The audit focused on the Program Management Office’s effort to
implement JABS from the time the component representatives signed the
Boundary Document in May 1999 through November 2004. We performed
our audit in accordance with the Government Auditing Standards and,
accordingly, included such tests of the records and procedures, as we
deemed necessary.

      As part of the audit, we reviewed applicable federal laws and
regulations, policies, procedures and management reports from the JABS
Program Management Office. We also interviewed officers from the Program
Management Office, contacted system users in person, and conducted phone
surveys and discussions with staff from the ATF, BOP, DEA, FBI, USMS, and
the DHS involved in implementing and using JABS. We also conducted
several discussions with contractor personnel working on JABS in connection
with contracts established by the Program Management Office.

       To determine the adequacy of the Program Management Office’s
efforts to implement JABS, we performed on-site reviews at six component
offices, and one office of the Bureau of Customs and Border Protection
Division of the Department of Homeland Security. We also interviewed
members of the JABS Board of Directors from the BOP, DEA, FBI, USMS, and
the DHS. Additionally, we interviewed members of the ATF, although the
ATF did not, at the time, have a seat on the Board of Directors.
The offices where we conducted work and interviewed personnel were:

Bureau of Alcohol, Tobacco, Firearms and Explosives
Washington, D.C.

Bureau of Prisons
Washington, D.C.

Drug Enforcement Administration
Atlanta, Georgia, Division Office
Arlington, Virginia




                                    66
Federal Bureau of Investigation
Atlanta, Georgia, Field Office
Washington, D.C. Field Office

United States Marshals Service
Northern District of Georgia, Atlanta, Georgia
Eastern District of Virginia

Department of Homeland Security, Bureau of Customs and Border Protection
Atlanta, Georgia, Hartsfield Jackson International Airport
Arlington, Virginia

      We used data from JABS mostly to provide background information
and to corroborate other information we obtained. We used JABS data to
help support the number of deployed sites, FBI fingerprint rejection rates,
system performance, and the fact that not all Department arrests have been
booked through JABS. In these instances, we obtained corroborating
evidence from the FBI and officials and system users in Department
components and other participating agencies. Our concerns about the
accuracy of data values in the JABS repository are described in Finding 1.




                                      67
                                                        APPENDIX II

                  TERMS AND ACRONYMS

ABS        Automated Booking System

ATF        Bureau of Alcohol, Tobacco, Firearms and Explosives

BOP        Bureau of Prisons

CJIS       Criminal Justice Information Services Division

DEA        Drug Enforcement Administration

DOJ        Department of Justice

IAFIS      FBI’s Integrated Automated Fingerprint Identification
           System

FBI        Federal Bureau of Investigation

FIREBIRD   DEA’s enterprise office automation and mission application
           information technology infrastructure

IDENT      DHS’s Automated Biometric Identification System

JABS       Joint Automated Booking System

JMD        Justice Management Division

LEO        Law Enforcement Online

OMB        Office of Management and Budget

PTS        U.S. Marshals Service’s Prisoner Tracking System

SDLC       System Development Life Cycle

TPRS       DHS’s Ten-Print Rap Sheet Request

USMS       United States Marshals Service




                               68
                                                          APPENDIX III

                  IMPLEMENTATION MILESTONES

•   February 1996 to July 1999 – The JABS Pilot Project in the Southern
    District of Florida is operational.

•   May 1999 – The program’s System Boundary Document is approved
    by the JABS Board of Directors. Development of the Core JABS data
    repository and the DEA's Firebird Booking Service (FBS) begins.

•   November 1999 – The program’s Concept of Operations and Version
    1.0 Requirements Matrix is approved by the JABS Board of Directors.

•   March 2000 – The program’s System Design Document is approved by
    the JABS Board of Directors. The JABS change control process and
    charters for the JABS Advisory Group and the Security Working Group
    are approved by the Board of Directors.

•   July 2000 - The JABS Program Management Office (PMO) receives
    certification and accreditation for the Core JABS and it becomes
    operational. The DEA begins deployment of the FBS. The JABS
    linkage with the DEA’s FIREBIRD network is established.

•   February 2001 – The BOP to the JABS Interface System Concept
    Design is completed by the BOP.

•   March 2001 – The CONOPS and functional requirements for the
    ENFORCE/JABS interface are completed by the INS.

•   October 2001 – The Core JABS version 2.0 Requirements Document is
    completed by the PMO.

•   November 2001 – A study of the USMS’s automated booking station
    and PTS systems is completed by the PMO.

•   August to October 2002 – The BOP, FBI, USMS, and INS booking
    stations are linked to the Core JABS and deployment of their booking
    stations begins.

•   November 2002 – The Core JABS Version 2.0 is placed into production
    with backup capability.



                                   69
   •   March 2003 – Functions of the INS are incorporated into the new
       Department of Homeland Security.

   •   April 2003 - Internet capability, with a network connection, to the
       FBI’s Law Enforcement Online (LEO) unit is established.30

   •   September 2003 – The JABS PMO reports deployment to 202 DEA
       sites, 137 FBI sites, 125 USMS sites, and 113 DHS sites.

   •   October 2003 – The JABS PMO completes deployment to one National
       Institutes of Health and one Department of Defense (Fort Monmouth)
       site.

   •   December 2003 – The ATF connects one site to the Core JABS.

   •   June 2004 – The Core JABS Version 3.0 is placed into production. The
       required certification and accreditation is also received during this
       month.

   With the anticipated submission of the OMB’s-300 Exhibit for 2006, the
JABS PMO advertises the following projected milestones.

   •   November 2004 – The ATF continues to deploy stations to remaining
       sites.

   •   September 2005 – The USMS expects to convert their automated
       booking stations to the web-based architecture. The FBI and USMS
       should be completely deployed. The ATF expects to have stations
       deployed to about 130 sites.

   •   December 2005 – The JABS PMO expects the U.S. Courts might have a
       JABS data interface.

   •   December 2005 – The federal offender tracking system should be
       integrated with the automated booking stations.

       30
          LEO is a 24/7 “on-line” (real-time), controlled-access data repository, providing a
focal point for electronic communication, education, and information sharing for the Law
Enforcement, Criminal Justice, and Public Safety Communities nationwide. Users are vetted
by the FBI prior to being given access to the network. LEO is accessed by using industry-
standard personal computers equipped with any standard Internet browser software.
Virtual private networking software provides authorized users secure access to LEO via the
Internet through an Internet Service Provider such as America On-Line, Microsoft Service
Network, a DSL/cable modem or Local Area Network.


                                             70
•   September 2006 – Due to anticipated equipment loss, obsolescence,
    and breakage, the JABS PMO expects to refresh equipment for about
    250 Department sites.




                                  71
                                                               APPENDIX IV

                 CERTIFICATION AND ACCREDITATION

      Certification and Accreditation is the official management decision
given by a senior agency official to authorize operation of an information
system and to explicitly accept the risk to agency operations, agency assets,
or individuals based on the implementation of an agreed-upon set of security
controls.

      Security Certification consists of two tasks: i) security control
assessment; and ii) security certification documentation. The purpose of
this phase is to determine the extent to which the security controls in the
information system are implemented correctly, operating as intended, and
producing the desired outcome with respect to meeting the security
requirements for the system. This phase also addresses specific actions
taken or planned to correct deficiencies in the security controls and to
reduce or eliminate known vulnerabilities in the information system. Upon
successful completion of this phase, the authorizing official will have the
information needed from the security certification to determine the risk to
agency operations, agency assets, or individuals—and thus, will be able to
render an appropriate security accreditation decision for the information
system.

      Security Accreditation consists of two tasks: i) security accreditation
decision; and ii) security accreditation documentation. The purpose of this
phase is to determine if the remaining known vulnerabilities in the
information system (after the implementation of an agreed-upon set of
security controls) pose an acceptable level of risk to agency operations,
agency assets, or individuals. Upon successful completion of this phase, the
information system owner will have: i) authorization to operate the
information system; ii) an interim authorization to operate the information
system under specific terms and conditions; or iii) denial of authorization to
operate the information system.




                                      72
                                      APPENDIX V

JMD’S RESPONSE TO THE DRAFT AUDIT REPORT




                   73
74
75
                                                             APPENDIX VI

 OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION ANALYSIS
   AND SUMMARY OF ACTIONS NEEDED TO CLOSE THE REPORT

      The Justice Management Division (JMD) agreed with all of the audit
recommendations it its response of April 22, 2005, and provided an Action
Plan statement for each recommendation.

Recommendation Number:

1. Resolved. This recommendation is resolved based on JMD’s agreement
   to develop, document, and implement a plan to complete or revise the
   project goals to share and exchange information in ways that reduce
   redundant steps between components, and to establish an offender
   tracking system.

   We can close this recommendation when we receive and review the plan,
   which should contain specific tasks, milestones, a budget, and a schedule
   for completion of the work.

2. Resolved. This recommendation is resolved based on JMD’s agreement
   to coordinate with the U.S. Marshals Service (USMS) regarding the need
   to deploy the Joint Automated Booking System (JABS) to all USMS sites
   taking custody of federal arrestees.

   We can close this recommendation when we receive and review
   documentation indicating that JMD has worked with the USMS to deploy
   JABS to as many USMS sites as practicable at which federal arrestees are
   booked.

3. Resolved. This recommendation is resolved based on JMD’s agreement
   to establish a requirement that all federal offenders arrested by
   Department components be booked through JABS. JMD’s response
   indicates it plans to work with components to determine how best to
   ensure that all offenders arrested by Department components are
   booked through JABS.

   We can close this recommendation when we receive and review a
   description of how JMD will ensure that the Department’s arrestees are
   processed through JABS.




                                    76
4. Resolved. This recommendation is resolved based on JMD’s agreement
   to work with the Federal Bureau of Investigation (FBI) to ensure that the
   fingerprint quality screening procedures used for JABS are enhanced to
   more closely mirror the FBI’s procedures.

   We can close this recommendation when we receive and review
   documentation detailing the results of JMD’s evaluation of the expected
   new standards and how the automated booking systems’ screening
   assessment software can be made to match the FBI’s screening.

5. Resolved. This recommendation is resolved based on JMD’s agreement
   to develop a plan for the future expansion of JABS that will take into
   account interagency booking capabilities, provide a clear definition of the
   universe of offenders to be included in JABS, and focus resources to
   optimize future expansion.

   We can close this recommendation when we receive and review the plan.

6. Resolved. This recommendation is resolved based on JMD’s agreement
   to establish and implement oversight procedures to ensure that
   contractors comply with their quality assurance plans.

   We can close this recommendation when we receive and review
   documentation detailing the procedures and indicating the procedures
   have been implemented.




                                      77
